<html>
<title> - MINE SAFETY AND HEALTH: A CONGRESSIONAL PERSPECTIVE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                        MINE SAFETY AND HEALTH:
                      A CONGRESSIONAL PERSPECTIVE

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             March 16, 2006

                               __________

                           Serial No. 109-32

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov
                                 ______

26-551 PDF          U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2006
________________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                COMMITTEE ON EDUCATION AND THE WORKFORCE

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California,
    Chairman                           Ranking Minority Member
Michael N. Castle, Delaware          Dale E. Kildee, Michigan
Sam Johnson, Texas                   Major R. Owens, New York
Mark E. Souder, Indiana              Donald M. Payne, New Jersey
Charlie Norwood, Georgia             Robert E. Andrews, New Jersey
Vernon J. Ehlers, Michigan           Robert C. Scott, Virginia
Judy Biggert, Illinois               Lynn C. Woolsey, California
Todd Russell Platts, Pennsylvania    Ruben Hinojosa, Texas
Patrick J. Tiberi, Ohio              Carolyn McCarthy, New York
Ric Keller, Florida                  John F. Tierney, Massachusetts
Tom Osborne, Nebraska                Ron Kind, Wisconsin
Joe Wilson, South Carolina           Dennis J. Kucinich, Ohio
Jon C. Porter, Nevada                David Wu, Oregon
John Kline, Minnesota                Rush D. Holt, New Jersey
Marilyn N. Musgrave, Colorado        Susan A. Davis, California
Bob Inglis, South Carolina           Betty McCollum, Minnesota
Cathy McMorris, Washington           Danny K. Davis, Illinois
Kenny Marchant, Texas                Raul M. Grijalva, Arizona
Tom Price, Georgia                   Chris Van Hollen, Maryland
Luis G. Fortuno, Puerto Rico         Tim Ryan, Ohio
Bobby Jindal, Louisiana              Timothy H. Bishop, New York
Charles W. Boustany, Jr., Louisiana  [Vacancy]
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York
[Vacancy]

                       Vic Klatt, Staff Director
        Mark Zuckerman, Minority Staff Director, General Counsel
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                   CHARLIE NORWOOD, Georgia, Chairman

Judy Biggert, Illinois, Vice         Major R. Owens, New York
    Chairman                           Ranking Minority Member
Ric Keller, Florida                  Dennis J. Kucinich, Ohio
John Kline, Minnesota                Lynn C. Woolsey, California
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   [Vacancy]
Thelma Drake, Virginia               George Miller, California, ex 
Howard P. ``Buck'' McKeon,               officio
    California,
  ex officio



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 16, 2006...................................     1

Statement of Members:
    Costello, Hon. Jerry F., a Representative in Congress from 
      the State of Illinois, prepared statement of...............    38
    Norwood, Hon. Charlie, Chairman, Subcommittee on Workforce 
      Protections, Committee on Education and the Workforce......     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Capito, Hon. Shelley Moore, a Representative in Congress from 
      the State of West Virginia.................................    11
        Prepared statement of....................................    13
    Chandler, Hon. Ben, a Representative in Congress from the 
      State of Kentucky..........................................    24
        Prepared statement of....................................    25
    Davis, Hon. Artur, a Representative in Congress from the 
      State of Alabama...........................................    31
        Prepared statement of....................................    33
    Holt, Hon. Rush D., a Representative in Congress from the 
      State of New Jersey........................................    18
        Prepared statement of....................................    20
    Mollohan, Hon. Alan B., a Representative in Congress from the 
      State of West Virginia.....................................    21
        Prepared statement of....................................    23
    Murphy, Hon. Tim, a Representative in Congress from the State 
      of Pennsylvania............................................    25
        Prepared statement of....................................    27
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................    14
        Prepared statement of....................................    16

Additional Materials Supplied:
    Owens, Hon. Major R., a Representative in Congress from the 
      State of New York, various newspaper articles:
        Pittsburgh Post-Gazette:
            ``Sago Inquiry Focuses on Blocks; Wall Did Not Fully 
              Match Designs That Had Passed Tests''..............     4
            ``Sago Inquiry Focuses on Blocks; Standards Are 
              Higher Elsewhere''.................................     6
        Charleston Gazette: ``Sago Blast Area Was Recently 
          Sealed; State OK'd Foamlike Seals, Not Mandated 
          Concrete''.............................................     8
        Washington Post: ``Mining for Legislation''..............     9


 
                        MINE SAFETY AND HEALTH:
                      A CONGRESSIONAL PERSPECTIVE

                              ----------                              


                        Thursday, March 16, 2006

                     U.S. House of Representatives

                  Subcommittee on Workforce Protections

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 12:22 p.m., in 
room 2175, Rayburn House Office Building, Hon. Charlie Norwood 
[chairman of the subcommittee] presiding.
    Present: Representatives Norwood and Owens.
    Staff present: Robert Borden, General Counsel; Steve Forde, 
Director of Media Relations; Kevin Frank, Coalitions Director 
for Workforce Policy; Ed Gilroy, Director of Workforce Policy; 
Rob Gregg, Legislative Assistant; Richard Hoar, Professional 
Staff Member; Kimberly Ketchel, Press Assistant; Jim Paretti, 
Workforce Policy Counsel; Molly McLaughlin Salmi, Deputy 
Director of Workforce Policy; Deborah L. Emerson Samantar, 
Committee Clerk/Intern Coordinator; Loren Sweatt, Professional 
Staff Member; Tylease Fitzgerald, Legislative Assistant/Labor; 
Peter Galvin, Senior Legislative Assistant; Tom Kiley, 
Communications Director; Rachel Racusen, Press Assistant; 
Marsha Renwanz, Legislative Associate/Labor; and Mark 
Zuckerman, Minority Staff Director.
    Chairman Norwood [presiding]. A quorum being present, the 
Subcommittee on Workforce Protections will come to order.
    We are meeting today to hear testimony on mine safety and 
health, a congressional perspective.
    Under committee rule 12(b), opening statements are limited 
to the chairman and the ranking minority member of the 
subcommittee. Therefore, if other members have statements, they 
may be included in the hearing record.
    With that, I ask unanimous consent for the hearing record 
to remain open for 14 days to allow member statements and other 
extraneous material reference during the hearing to be 
submitted in the official hearing record.
    Without objection, so ordered.
    Two weeks ago, this subcommittee began a series of hearings 
examining the health and safety regulations of our nation's 
mines. At our first hearing, we heard from federal mine 
regulators with representatives of both the mining industry and 
mine workers as to how current law works and where it might be 
improved.
    Since our first hearing, I was pleased to see that MSHA 
finalized and published emergency temporary standards to 
immediately increase protections for mine workers. These 
regulatory changes will require a mine operator to notify MSHA 
within 15 minutes of an accident occurring.
    The changes will also require placing more self-contained, 
self-reducers in mine and in specific areas of the mine. 
Training is heavily emphasized throughout the standard. Miners 
will be required to have hands-on training, self-reducers and 
will have to perform evacuation drills.
    Earlier this week, MSHA held a technology meeting to 
explore improving existing communications and location systems. 
Several people have asked the same question I did in the last 
hearing: Why are we unable to communicate with miners 
underground? What are the limits of this technology? I 
understand that progress is being made in this area, but I am 
interested in hearing how this progress can be accelerated in 
order to get MSHA permissible equipment in place and in place 
now.
    Is it an area the subcommittee is going to continue to push 
and shove and explore till we get answers.
    Our hearing today will feature a congressional perspective 
on mine safety and health. I am honored that our colleagues 
have agreed to meet with us today regarding the issue of mine 
safety. These members will bring us a different perspective of 
issues of state law and tax mine operations differently 
throughout the country.
    I trust they will also discuss various legislative 
proposals addressing mine safety improvements.
    As I said at the outset of our first hearing, we are here 
foremost to listen and to learn so that if we must legislate, 
we do so responsibly. I hope and trust that each of my 
colleagues on the subcommittee share that view and that we 
conduct this hearing accordingly.
    With that, I welcome my colleagues and look forward to 
hearing their comments. I would like to thank our witnesses for 
taking time out of their day on their busy schedule to testify 
before us. I think it is very important for you, I think it is 
important for your district and your constituents that you have 
this opportunity to come and put your thoughts and feelings and 
ideas on the record. And I very much look forward to it.
    I now yield to Mr. Owens for whatever opening statement he 
may wish to make.
    [The prepared statement of Chairman Norwood follows:

 Prepared Statement of Hon. Charlie Norwood, Chairman, Subcommittee on 
                         Workforce Protections

    Two weeks ago, this Subcommittee began a series of hearings 
examining the health and safety regulation of our nation's mines. At 
our first hearing, we heard from federal mine regulators, and 
representatives of both the mining industry and mine workers as to how 
current law works, and where it might be improved.
    Since our first hearing, I was pleased to see that MSHA finalized 
and published Emergency Temporary Standards to immediately increase 
protections for mine workers. These regulatory changes will require a 
mine operator to notify MSHA within 15 minutes of an accident 
occurring. The changes will also require placing more self-contained 
self-rescuers in mines and in specific areas of the mine. Training is 
heavily emphasized throughout the standard. Miners will be required to 
have hands on training with self-rescuers, and will have to perform 
evacuation drills.
    Earlier this week, MSHA held a technology meeting to explore 
improving existing communications and location systems. Several people 
asked the same question I did in the last hearing. Why are we unable to 
communicate with miners underground? What are the limits of technology? 
I understand that progress is being made in this area, but I am 
interested in hearing how this progress can be accelerated in order to 
get MSHA-permissible equipment in place. It is an area the Subcommittee 
will continue to explore.
    Our hearing today will feature a Congressional perspective on mine 
safety and health. I am honored that our colleagues have agreed to meet 
with us today regarding the issue of mine safety. These members will 
bring us a different perspective of the issues as state law impacts 
mine operations differently throughout the country. I trust they will 
also discuss various legislative proposals addressing mine safety 
improvements. As I said at the outset of our first hearing, we are here 
foremost to listen and learn, so that if we must legislate, we do so 
responsibly. I hope and trust that each of my colleagues on the 
Subcommittee shares that view, and that we conduct this hearing 
accordingly.
    With that, I welcome my colleagues and look forward to hearing 
their comments.
    I would like to thank our witnesses for taking time out from their 
busy schedules to testify before us today. I very much look forward to 
your testimony.
                                 ______
                                 
    Mr. Owens. Mr. Chairman, I, too, want to begin by 
acknowledging all the members of Congress who have agreed to 
take time form their busy schedules to address the critical 
issue of mine safety with us. We are all peers, and somehow it 
does not seem quite fitting to have subcommittee members seated 
up here on the dais and eight members of Congress who have 
agreed to come testify seated below us.
    By the way, I understand very well why some of the members 
are not here, given the disruption caused by the lengthy vote. 
I understand Representative Costello is having lunch with 
President Bush and the president of Ireland. So you can see 
that his priorities are in the right direction, even though we 
also consider our hearing quite important. And others, I am 
sure, have very important appointments, and that is why they 
are not able to be here.
    A roundtable seating arrangement might have been preferable 
as a more congenial and appropriate setting. This is a very 
special hearing, because the issue is a life-and-death matter.
    That said, since our March 1 subcommittee hearing, several 
alarming new reports have underscored the appalling state of 
mine safety standards implementation and enforcement in this 
country.
    First, press reports have documented serious questions 
about U.S. standards for mine seals. Designed to wall off 
abandoned sections from working areas of the mine, these seals 
are constructed with concrete blocks or other approved 
materials. In the Sago Mine disaster, methane gas built up and 
somehow ignited in an abandoned area, blowing out the thin 
walls built to seal if off from the working places.
    Under current federal MSHA rules, mine seals must be able 
to withstand explosive forces of 20 pounds per square inch. 
Here again we lag far behind other western industrialized 
nations in safeguarding the lives of frontline mine workers. 
Our standard is less than half that required for mines in the 
United Kingdom, Canada, Australia and elsewhere in Europe.
    In Queensland, Australia, for example, mine seals must, at 
a minimum, withstand a major explosive force of 50 pounds per 
square inch.
    Policymakers and mining company owners throughout Australia 
and Europe accept wholeheartedly that such safety standards not 
only save lives, they help make mines more productive.
    I ask unanimous consent that two articles in the Pittsburgh 
Post Gazette and one from the Charleston Gazette on this topic 
be placed in the record in their entirety.
    Chairman Norwood. So ordered.
    [The information follows:]

           (From the Pittsburgh Post-Gazette, March 12, 2006)

                    Sago Inquiry Focuses on Blocks;
         Wall Did Not Fully Match Designs That Had Passed Tests

                           by dennis b. roddy
    The high-density foam block wall that failed in the Jan. 2 Sago 
Mine explosion did not fully match designs that passed earlier tests, 
both in 1992 and a decade later.
    Crews at Sago used Omega Block, a concrete-and-fiber material 
marketed by Burrell Mining Products, based in New Kensington, to seal 
10 openings to an abandoned section of the mine last year. That section 
is believed to be where a buildup of methane ignited, blowing out all 
10 walls built to close it off from the working areas of the mine.
    Federal and state investigators looking into the blast have focused 
attention on the wall and why it failed.
    Several questions are under examination in the Sago blast, 
including what ignited the methane in the sealed areas and the delays 
in entering the mine to rescue men who could have walked out.
    The failure of the seals has focused attention on the established 
minimum blast resistance standards and the margins of error that exist 
between the science of testing them in a controlled setting and the 
varied factors that surround their actual construction.
    The federal Mine Safety and Health Administration approved the plan 
to seal off an abandoned section at Sago last year, signing off on a 
plan that called for a 40-inch-thick Omega Block barrier, and which 
included the words ``no hitching required.''
    Hitching--cutting out a notch in the mine's floor and walls into 
which the sealing wall is recessed for additional strength--was done in 
1992 when scientists at the Bureau of Mines laboratory, now part of the 
National Institute for Occupational Safety and Health, tested an Omega 
Block wall able to meet government standards. The test was done at the 
bureau's Lake Lynn Laboratroy Experimental Mine near Fairchance, 
Fayette County.
    Under federal regulations, walls sealing off abandoned sections of 
mines must be able to withstand explosive forces of 20 pounds per 
square inch.
    In August and September of 2001, a team at NIOSH did another test 
which included a 40-inch-thick wall of Omega Block without such 
hitching. The test, though, was part of a series of experiments to 
develop ``seal designs for rapid deployment during mine emergencies.'' 
The seals presumably would be rushed into service to close off sections 
of mines during emergencies and were not originally envisioned as 
standard structures inside working mines. The study's title suggested 
the rushed nature by which such seals would be put in: ``Designs for 
Rapid In-Situ Sealing.''
    Nonetheless, because the walls withstood repeated blasts, including 
one at 27 psi, MSHA permitted that study to be the basis for approving 
the construction of Omega Block walls without hitching. Notice of the 
approval was sent to the agency's 11 district offices.
    Even under that standard, the Sago Mine seal plan approved by MSHA 
did not exactly match the dimensions described in the study.
    The NIOSH test that was done without hitching assumed a wall of no 
more than 6.8 feet in height at 40 inches in thickness. The plan 
approved for the Sago seals described seals ranging in height from 
eight to 12 feet. Early indications are that the seals installed at 
Sago did not exceed 8 feet in height, running, on average, 7 feet.
    Michael Sapko, one of the researchers who performed the 2001 test 
that MSHA later used to approve unhitched walls, said the height of a 
seal could affect its blast resistance.
    ``As you increase the height of the seal, typically, you need to 
increase the thickness of the seal in order to maintain the same 
explosion-resistance,'' Mr. Sapko said.
    Mr. Sapko said that once the unhitched Omega Block wall withstood 
repeated blasts at 20 psi and higher, the product's maker, Burrell 
Mining Products, sought MSHA approval for its use as a mine seal that 
did not require hitching.
    A company technical representative, Charles Lash, helped to erect 
the wall that was tested, Mr. Sapko said.
    Reached last week, Mr. Lash declined to comment.
    At Burrell Mining's headquarters, a receptionist said there was no 
one in the office and that the company would have no comment.
    Omega Block, introduced in the 1990s, is a composite of concrete, 
ash and fiber which has become widespread in mine seals because its 
lower weight allows for quicker installation, often with fewer back 
strain injuries for crews. Mine safety officials, notably those at the 
United Mine Workers of America, have expressed skepticism about the 
block's capacity to withstand blasts. Earlier NIOSH studies showed that 
traditional and more expensive concrete walls, notched into mine floors 
and walls, more readily withstand methane blasts as great as three 
times the 20 psi minimum standard.
    What becomes clear from various test reports and interviews with 
mining experts is that the installation procedure necessary for Omega 
Block to withstand a 20 psi blast is intricate and must be followed 
carefully.
    Installation of the block includes 20 parameters that must be met, 
according to Mark Skiles, MSHA director of technical support.
    ``That's a detailed list of stuff you have to do right. Any step 
you leave off is critical. You've got to do it just right,'' Mr. Skiles 
said.
    Among areas the Sago investigators are looking at is whether the 
Omega Block wall, built by a crew of contractors, was assembled 
according to specifications.
    When Bureau of Mines officials tested Omega Block in 1992 at the 
Lake Lynn Experimental Mine, they detailed the construction of four 
Omega Block test seals in the report later used to gain approval for 
the block from MSHA. The report limited its language carefully in 
saying the block could meet federal standards.
    Researchers constructed three Omega Block walls which were 24 
inches thick and a fourth which was 32 inches thick.
    ``Simulating keying--hitching--on the floor and ribs using a six- 
by one-half-inch steel angle secured with 24-inch-long by 1-inch-
diameter case-hardened steel bolts on 18-inch centers was applied to 
all of the seal designs,'' the report stated.
    The four test walls survived an explosion of 20 psi force, and 
researchers concluded that the block met the requirements of the 
federal code governing mine seals ``if constructed in the same manner 
as the seals in the [Lake Lynn Experimental Mine].''
    Omega Block underwent one other blast test, in July 2001, at Lake 
Lynn, but the results were never used to assess its reliability by MSHA 
because the test itself was an experiment of testing methods.
    NIOSH scientists were searching for a way to allow the testing of 
mine seals inside mines, something that cannot be done currently 
because testing procedures require the creation of a methane explosion.
    Scientists looked for ways to replicate such blasts by using water 
and air pressure, and set up various types of mine seals inside a 
specially designed chamber at the laboratory.
    To determine the ultimate failure pressure of various seal designs 
that withstood the pneumatic tests, researchers pumped a methane-oxygen 
mixture into the chamber and triggered explosions.
    While eight of the 11 traditional concrete block walls withstood 
blasts ranging from 66 psi to 86 psi, three to four times the standard, 
the unhitched, 40-inch thick Omega Block wall, the design cleared for 
use at Sago, failed at 17.9 psi. The earlier approved design that 
included hitching into the floor and walls ruptured at 22 psi.
    The unhitched wall that failed in the hydrostatic chamber test in 
some respects matched the Sago design in terms of height more closely 
than the ones that passed a test one month later, the test of emergency 
mine seals that MSHA later adopted to approve unhitched Omega Block 
walls.
    The July 2001 blast test in the hydrostatic chamber was of a wall 
81/2 feet tall, somewhere in the range of the 8-foot walls approved for 
Sago.
    Mr. Sapko later did calculations for the walls tested in the 
hydrostatic chamber and calculated that, at 8 feet, ``it may have held 
at 20 psi.''
    ``Until we find out how they were actually constructed, then we'll 
have a better picture of what may or may not have happened,'' Mr. Sapko 
said.
    Omega Block's uses inside mines came under new scrutiny in Alabama 
two weeks ago when workers at the Drummond Co.'s Shoal Creek Mine 
reported that three Omega blocks had been sucked out of an 18-inch-
thick mine ventilation wall by the fan that courses air through the 
shaft.
    Such ventilation walls, known as ``brattices,'' run from ceiling to 
floor and direct fresh air through a mine and into its work area. In 
addition to providing breathable air to miners, they are essential for 
diluting and drawing out methane gas that might have seeped into the 
mine from the coal strata.
    ``These blocks cannot withstand these kinds of pressures,'' said 
Timothy J. Baker, deputy administrator for occupational health and 
safety for the United Mine Workers, which represents Shoal Creek's 533 
miners.
    Mr. Baker said that, before an evacuation could be ordered, an 
explosion erupted in the mine, leading to speculation that the missing 
blocks had interfered with the air flow and allowed methane to gather.
                                 ______
                                 

           (From the Pittsburgh Post-Gazette, March 12, 2006)

                    Sago Inquiry Focuses on Blocks;
                     Standards Are Higher Elsewhere

                             BY STEVE TWEDT
    The mine seals at Sago Mine No. 1, where 12 miners died after an 
explosion trapped them underground Jan. 2, would have been considered 
substandard in many industrialized nations.
    The U.S. standard--that a seal withstand an explosive force of 20 
pounds per square inch--is less than half what British, Canadian, 
Australian and some European authorities require.
    ``If it was an active mine, we wouldn't accept'' a 20 psi seal, 
said Fred Hermann, chief inspector of mines in British Columbia.
    ``We would probably be up in the 35 to 40 psi range, maybe as high 
as 50. If you've got people in there, you go to your risk factors. If 
it's an active mine, then the objective is to protect people.''
    Queensland, Australia, requires a minimum 50 psi tolerance, and 
some European countries' standards are higher.
    While the cause of the Sago Mine explosion has not been determined, 
investigators believe methane ignited behind a walled-off area inside 
the mine, blowing out all the Omega block seals. What ignited the gas 
remains unknown.
    Regardless of the cause, the Pittsburgh Post-Gazette has uncovered 
troubling questions about the 20 psi standard for seals in U.S. mines 
and whether that standard makes a seal ``explosion proof,'' as required 
by federal law.
    ``I think 20 psi would probably withstand a moderate force 
explosion, but certainly not a major one,'' said Mr. Hermann, who is 
based in Victoria, B.C.
    When the 20 psi standard was adopted in 1992, officials cited a 
1971 study done in Pittsburgh's Mining and Safety Research Center that 
said a 20 psi seal may be considered explosion-proof as long as the 
sealed area ``contains sufficient incombustible [material] to abate the 
explosion hazard'' at the seal as well as the surrounding area.
    It's the issue of monitoring and controlling the gas environment 
that might get lost in the translation from research to regulation to 
accepted practice. This is especially true as the number of sealed 
areas has increased, with tens of thousands of seals now installed in 
underground mines. The report--``Explosion-Proof Bulkheads: Present 
Practices''--appears to assume that any explosion would occur at the 
mine's working face, away from the sealed area.
    ``The important thing is that, with the 20 psi, you need to control 
the atmosphere behind the gob [sealed area], and not just look at the 
seal itself,'' said Michael Sapko, a physical scientist and engineer 
with the National Institute for Occupational Safety who specializes in 
fire and explosions research.
    ``You can't just let the whole area fill up with an explosive 
mixture. You have to look at it as a systems approach.''
    Dennis O'Dell, administrator of occupational health and safety for 
the United Mine Workers of America, believes research on mine seals has 
to be updated to reflect current mining operations.
    ``The mines are getting deeper and we're getting into seams that 
are more gassy. The conditions are not the best, so they need to take 
all those things into consideration,'' Mr. O'Dell said.
    He suggested building on existing research and looking at what 
other countries are doing.
    The 1971 paper noted that authorities in Poland and Germany had 
decided that seals should be able to withstand a 72 psi explosion. It 
cited a United Kingdom commission report which said those designing 
bulkhead seals should ``assume that pressures of 20 to 50 psi may 
develop * * * and that the figure of 50 psi gives a good margin of 
safety in practice.''
    None of that was included in the May 15, 1992, final rule language 
on seal construction published in the Federal Register.
    After 12 men died at Sago, though, the mine seal standard ``is 
obviously an important part of the question that we're going to need to 
ask,'' J. Davitt McAteer said last week.
    Mr. McAteer, the former U.S. assistant secretary of labor for mine 
safety and health chosen by West Virginia Gov. Joe Manchin III to head 
up the state's Sago investigation, said he was unaware the U.S. 
standard was lower than other countries'.
    The 20 psi threshold ``has always been the accepted test parameter 
when testing ventilation seals,'' said Joe Sbaffoni, director of 
Pennsylvania's Bureau of Mine Safety. ``But I'm sure that's what's 
going through everyone's minds right now, is 20 psi enough?''
    The group of U.S. engineers involved in the first tests of seals in 
the 1920s used a 50 psi standard and it was made part of the coal 
mining regulations for leased government lands.
    According to a footnote in a 1931 Bureau of Mines Bulletin, that 
decision ``was made by the conference of engineers, including 
representatives of various state mining departments, and was based on 
the general opinion of men experienced in mine-explosion 
investigations.''
    Later language required that the bulkhead seals be ``substantial'' 
without designating a specific standard.
    The sealing of mined-out or abandoned sections dates to pre-World 
War II days, although Pennsylvania did not allow it until the 1980s.
    Mine operators seal off areas so they don't have to be ventilated 
or maintained, an approach many consider safer for underground workers. 
Methane typically builds up after an area is sealed. Methane is 
considered explosive when it is within 5 percent to 15 percent of the 
air mixture, but it will not explode once it exceeds 15 percent because 
there is insufficient oxygen to make it flammable. That can make newer 
seals, such as the one at Sago, vulnerable as the methane levels move 
through that explosive range.
    Mr. Sapko said no one knows for sure what happened at Sago, 
including the force of the explosion. He said later research, looking 
at explosions over a 13-year period, found that they usually did not 
exceed 20 psi.
    But at least one federal investigation warned in 2001 that a mine 
explosion could exceed 20 psi ``if a large flammable gas volume exists 
in the gob.''
    A mine explosion remains an unusual event. A 2001 NIOSH newsletter 
reported seven explosions in the previous six years in sealed areas of 
underground coal mines. The explosions did not cause any injuries--no 
miners were working near the areas at the time--but numerous mine seals 
were destroyed. In each case, the explosions, which were believed to 
have been started by lightning, generated a force up to 138 psi.
    A 20 psi rating for a seal 8 feet wide and 4 feet tall means it can 
withstand a force of 92,000 pounds. While that may sound substantial, 
``when you're talking about an explosion, that's really not a lot,'' 
said Anthony Whitworth, whose Jasper, Ga., company trains mine workers 
in 10 countries.
    ``It only has to get to that point. It doesn't have to stay 
there.''
    Luke Popovich, spokesman for the National Mining Association, which 
represents mining industry corporations, said mine operators would 
abide by whatever standard is required.
    ``But virtually all of our mines today routinely build seals beyond 
the standard required in the code of regulations, although how much 
beyond the current standard, we can't say.''
    With 12 men dead at Sago, though, officials are likely to be paying 
more attention to the specifics of those seals.
    While coal mining ``to its credit'' has become safer, accidents 
will still happen, Mr. Hermann said. ``It's unfortunate, but you learn 
from these kind of incidents and you adjust the standard 
appropriately.''
                                 ______
                                 

            (From the Charleston Gazette, January 13, 2006)

                  Sago Blast Area Was Recently Sealed;
            State OK'd Foamlike Seals, Not Mandated Concrete

                   BY KEN WARD JR. AND PAUL J. NYDEN
    Fairmont--The explosion at the Sago Mine occurred in a mined-out 
area that had been sealed perhaps only weeks before the Jan. 2 
disaster, state government records show.
    A state mine safety inspector examined the seals Dec. 12 and 
determined that they were properly constructed, according to the 
records.
    ``The seals may be closed,'' wrote John Collins, an inspector with 
the state Office of Miners Health, Safety and Training. ``The seals are 
built as approved.''
    Less than three months before the blast, on Oct. 14, state 
regulators had approved a plan to seal an area of the mine called ``2nd 
Left Mains.''
    In media coverage, the bodies of 11 of the miners who died in the 
Sago disaster were reported found in ``2nd Left.''
    But actually, they were found in a new production section, called 
``2nd Left Parallel.'' That section was located between the sealed 
``2nd Left'' and another section called ``1st left.''
    In that sealing plan, state officials approved the use of ``Omega 
blocks,'' a product resembling dense plastic foam.
    During a public meeting Thursday, C.A. Phillips said the explosion 
blew out the seal that protected the active mine workings from the 
mined-out 2nd Left area.
    Officials from International Coal Group, which owned the mine, have 
said the explosion blew the seals into the active mine, a finding that 
led them to believe the blast occurred in the sealed-off section.
    On Thursday, Phillips told the state Board of Coal Mine Health and 
Safety that, ``The seals, made with foam, could withhold pressures of 
five pounds per square inch.''
    Rick Glover, a board member and retired United Mine Workers safety 
official, said those seals were much too weak.
    Glover said federal mining regulations require that underground 
mine seals, installed to isolate mined-out areas from active sections, 
must be able to withstand pressures of 20 pounds per square inch.
    U.S. Mine Safety and Health Administration rules actually require 
all seals to be built using ``solid concrete blocks.'' Alternate 
materials can be used only if they will withstand 20 pounds per square 
inch of pressure, the MSHA rules state.
    In a summary of its research on coal mine seals, the National 
Institute for Occupational Safety and Health reported that 
``ventilation seals are used extensively in mining to safely isolate 
old workings and fire areas from the active sections of a mine to 
protect underground workers from explosions.
    ``Without reliable seal designs, miners' lives could be in jeopardy 
from the consequences of an underground explosion,'' said the NIOSH 
report.
    NIOSH said one company alone reported that its seal products were 
used an average of 70 times per month in underground mines.
    In its summary, NIOSH also noted that an explosion occurred in a 
sealed area of the Gary 50 Mine, owned by U.S. Steel, in Pineville in 
June 1995.
    That mine used 4-foot-thick pumped cement seals tested by NIOSH and 
approved by MSHA. The seals ``effectively contained the explosion, 
thereby sparing the miners working nearby,'' NIOSH reported.
                                 ______
                                 
    Mr. Owens. The second alarming report appeared on the 
federal pages of The Washington Post on March 9 of this year. 
In the special interest column on that page, an article 
entitled, ``Mining for Legislation,'' described visits of some 
24 mine executives and more than 60 members of Congress on the 
other side of aisle to deliver wish lists of what industry is 
seeking in any mine safety legislation considered this year.
    I ask unanimous consent that this article be placed in the 
record also.
    Chairman Norwood. So ordered.
    [The information follows:]

               (From the Washington Post, March 9, 2006)

                         Mining for Legislation

                            BY JUDY SARASOHN
    With the coal industry's improving safety record pretty much shot 
already for 2006 by the explosion in a West Virginia mine in January 
and other incidents that have left 21 coal miners dead--22 died in all 
of 2005--about two dozen mine executives and industry representatives 
lobbied the Hill this week in support of mine safety legislation.
    ``We're not there to argue or fight or to prevent anything,'' 
explained Michael J. Quillen, chief executive of Alpha Natural 
Resources, a leading Appalachian coal producer. ``We're not looking for 
feel-good legislation. We want something that works.''
    To that end, the coal executives told more than 60 lawmakers about 
what they called a ``set of guiding principles'' for Congress to 
consider as it works on mine safety legislation. Those principles 
include expediting the development of two-way communication and 
tracking technology, improving safety training and rescue capabilities, 
and mandatory drug testing of all mine personnel. Also, the mine 
executives want a liability shield and indemnification for rescue 
activities and tax incentives to help pay for safety equipment and 
training.
    Quillen and Luke Popovich, vice president for external 
communications for the National Mining Association, said coal mining is 
a technologically difficult and hazardous operation. Communications and 
other safety devices have to be developed to withstand explosions and 
not cause them by sparking, they said. Without federal legislative 
backing and directives, the industry is too small to encourage 
manufacturers to develop the necessary technology. Moreover, it has no 
authority to go to NASA or the Defense Department for help, they added.
    ``We can't walk up to Wal-Mart and get the technology off the shelf 
and put it into use,'' Quillen said.
    The mining executives did run into some skepticism on the Hill, 
they said. And some folks who represent miners aren't convinced of the 
mine operators' good faith. But Popovich said that ``instead of running 
from the problem, they're running toward it--in hopes of finding a 
legislative solution that actually leads to safer mines.''
    The West Virginia delegation has introduced legislation to increase 
mine safety, but little has been done on it. The Senate last month 
approved an amendment by Sen. John D. Rockefeller IV (D-W.Va.) to a tax 
bill to provide tax incentives to help mining companies pay for safety 
equipment and train rescue teams. That bill goes to conference with a 
House measure that was passed before this year's mine accidents.
    Change to Win, the new labor federation whose members split last 
year from the AFL-CIO, has snagged Frank Clemente, director of Public 
Citizen's lobbying arm, Congress Watch. Clemente started this week as 
the labor group's issues campaign director.
    Clemente had been at Public Citizen for about 12 years, directing 
major public education and advocacy efforts on campaign finance, 
improving access to health care, as well as fighting GOP proposals for 
product liability and securities litigation legislation.
    Among the Change to Win members are the Laborers' International 
Union of North America, the Teamsters, the United Farm Workers and 
others. ``The reach is big,'' Clemente said. ``This is a major 
political force,'' he added, with ``the ability to move these big 
issues.''
    Also moving about town * * * Winnie Stachelberg has signed on as 
senior vice president for external affairs at the Center for American 
Progress, the liberal think tank and advocacy group founded by Clinton 
White House chief of staff John D. Podesta. Stachelberg was vice 
president of the Human Rights Campaign Foundation and earlier served as 
political director of the Human Rights Campaign, the gay civil rights 
organization. She called the move `` a great opportunity to help 
promote progressive policies and ideas.''
    Shahira Knight is beating her former boss, House Ways and Means 
Committee Chairman Bill Thomas (R-Calif.), out the door. Before 
Thomas's announcement this week that he will retire from the House, 
Knight joined the C2 Group as a partner in the lobby shop. The C2 Group 
was founded by Tom Crawford, a former Michigan state legislative aide, 
and John Cline, a former assistant secretary of transportation in the 
Bush I administration.
    Penelope Naas, most recently director of the Office of European 
Union at the International Trade Administration, next month joins 
Citigroup as vice president of global government affairs and chief of 
staff. Naas started at the Commerce Department during the Clinton 
administration. Citigroup's senior vice president for global government 
affairs is Nicholas Calio, former top lobbyist to the current 
president.
    Celia Wallace, previously energy and environment legislative aide 
to Sen. Craig Thomas (R-Wyo.), has joined Tongour Simpson Holsclaw as a 
vice president. Earlier, she worked on the Senate Energy Committee for 
then-Chairman J. Bennett Johnston (D-La.). Members of the firm include 
former senator Alan K. Simpson (R-Wyo.) and his former chief counsel, 
Mike Tongour.
    Barbour Griffith & Rogers has hired Shalla Ross, most recently 
policy director at the House Republican Conference Committee.
                                 ______
                                 
    Mr. Owens. What is most disturbing about this report is not 
simply the implied connection with campaign contributions or 
special favors, what is disturbing is the sheer inability of 
ordinary mine workers and their families to meet with members 
of Congress at all, let alone as routinely as mine executives 
or mining company lobbyists do.
    What is even more troubling is the refusal of this 
committee to allow mine workers, surviving family members of 
mine tragedies or even mine rescue team members to appear 
before us as witnesses at official hearings. Frontline mine 
workers are put in harm's way every day they go underground 
simply to earn enough money to feed, cloth and shelter their 
families.
    A comment was made at the last hearing that underground 
mining was an interesting career choice. These mine workers 
don't necessarily see it as a choice. They, in those dangerous 
jobs, earn a living wage where they could not earn it otherwise 
for their families. They remain in even greater danger because 
of the failure of this Congress to conduct appropriate 
oversight of MSHA's conduct since 2001.
    Mr. Chairman, we can rectify some of this neglect of 
oversight duty this morning by focusing on an important 
bipartisan bill, H.R. 4695, the Federal Mine Safety and Health 
Act of 2006. It was introduced by Representative Nick Rahall, 
Alan Mollohan and Shelley Moore Capito, who are all here today. 
They are all here with us.
    Others on this committee have already joined the West 
Virginia House delegation in cosponsoring this important bill. 
I look forward to hearing them all.
    And on that note, Mr. Chairman, I ask you again to please 
schedule a markup on H.R. 4695 immediately following next 
week's recess.
    I yield the balance of my time.
    Chairman Norwood. We have a panel of very distinguished 
witnesses today. Of course I want to hear from all of you. I am 
going to try to hold this hearing open as long as I can get 
somebody to stay with me so members can drop in and out. I know 
we have been disrupted a great deal with the vote, but I 
really, truly want everybody to have an opportunity to have 
their say on this.
    I would like to introduce our witnesses, though I think we 
all know each other. The Honorable Shelley Moore Capito is of 
course the representative of the 2nd District of West Virginia. 
Later, hopefully, the Honorable Tim Murphy is the 
representative from the 18th District of Pennsylvania; the 
Honorable Dick Rahall is the representative for the 3rd 
District of West Virginia; the Honorable Artur Davis is the 
representative of the 7th District of Alabama; the Honorable 
Jerry Costello is the representative of the 12th District of 
Illinois; the Honorable Rush Holt is the representative of the 
12th District of New Jersey; the Honorable Alan Mollohan is the 
representative of the 1st District of West Virginia; and the 
Honorable Ben Chandler is the representative of the 6th 
District of Kentucky.
    I would like to remind the members that we will be asking 
questions of the witnesses after testimony. In addition, 
Committee Rule II poses a 5-minute limit on all questions.
    With that, I would like to start with Congresswoman Capito.
    Welcome.
    Mrs. Capito. Thank you.
    Chairman Norwood. You are recognized for 5 minutes.

  STATEMENT OF HON. SHELLEY MOORE CAPITO, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mrs. Capito. Thank you, Mr. Chairman, Ranking Member, my 
distinguished colleagues on the panel and my fellow West 
Virginians. Actually, we are all full West Virginians seated 
here. I want to thank you for holding this important hearing 
and for the opportunity to testify.
    You well know the tragedy that West Virginians have endured 
in the coal fields just this year, and I appreciate the 
willingness of the subcommittee to examine steps that Congress 
and MSHA can take to improve the safety of our minors.
    On the morning of January 2, an explosion rocked the Sago 
Mine in Upshur County, West Virginia, which is in my district. 
Thirteen men were trapped 260 feet below the surface. One miner 
survived but he had serious injuries resulting from a lack of 
oxygen. Twelve other miners were killed. Four other miners were 
subsequently killed in West Virginia in accidents at the Alma 
Mine and in Boone County during the month of January.
    The one positive that should come from these tragic deaths 
is a renewed commitment from government, from industry and from 
miners themselves to improving safety in our underground mines.
    MSHA emergency rules, which you talked about in your 
opening statement, are certainly a step in the right direction 
in enhancing safety, but it is only a first step in what we 
must do to prevent future accidents and respond effectively if 
an accident would happen to occur.
    West Virginia's congressional delegation introduced a bill, 
H.R. 4695--all five of us are on that bill--that I believe 
outlines the areas your committee should focus on as you 
examine MSHA regulations and consider legislation. These areas 
include the structure and availability of mine rescue teams, 
the emergency oxygen supply for miners and new and emerging 
technologies like tracking devices, two-way communications and 
rescue chambers.
    Many have complained that new mining technologies are not 
available. Both in the meetings I have had on mine safety and 
indeed in this hearing that was held on March 1, there has been 
disagreement on which tracking and communications systems work. 
My response is that if there is no two-way communications 
system at all, one must be developed and developed quickly. And 
if there is none at all, we are not going to save one life.
    We know that at least 12 of the 13 Sago miners were alive 
hours after the explosion. Lives could almost certainly have 
been saved if rescuers could have communicated with the trapped 
miners and directed them out of the mine. What a tragedy.
    I believe that where a serious will exists to develop a new 
technology the goal can be achieved. Indeed, seven new two-way, 
wireless communications devices will be tested in West Virginia 
next week. MSHA has said that it received over 80 proposals, 
and I feel like I have seen 80 in my office, demonstrating that 
there are companies and individuals willing to create this 
technology.
    We know that tracking systems are available now, despite 
limitations that may mean that a miner's location is only known 
based on the last tracking beacon that they passed. I believe 
this technology could and should be improved, but when it comes 
to safety perfection should not be the enemy of the good. We 
should require that tracking systems become standard across the 
underground mining industry.
    Most of us now know that a mine rescue chamber saved dozens 
of lives at a mineral mine in Canada. I certainly understand 
the viewpoint expressed in the March 1st hearing that miners 
should be trained to get out of the mine in an emergency. 
Clearly, evacuation is preferable in an accident. Still, we 
know there are instances where miners will not be able to 
immediately escape. We need to seriously evaluate rescue 
chambers and how they would work in underground coal mines. And 
if they will, then they should be included as a life-saving 
device for American miners.
    I believe that Congress must act, and must act on our bill, 
to require that regulations be issued on new safety 
technologies. Steven Luzik,the chief of MSHA's Approval and 
Certification Center, told the Associated Press this week that 
prior to the accidents in West Virginia, MSHA had not done much 
to test or evaluate new communications equipment. That is a 
startling statement, I find.
    While I am encouraged that new two-way wireless 
communications devices will be tested next week, I fear that as 
we move further away from the tragedies at Sago and Alma that 
complacency could take hold when it comes to new safety 
technologies. I can tell you as a member of the West Virginia 
delegation, we will not let complacency set in.
    Only congressional action, through legislation and 
continued oversight, can ensure that positive steps currently 
being taken in regards to mine safety are not swept under the 
rug when the public spotlight turns away from the issue.
    In addition to evaluating new technologies, we should take 
steps to improve our mine rescue teams, ensuring that they are 
familiar with the mines and can respond as soon as it is safe 
to enter an accident scene. At the Sago Mine, the waiting and 
waiting and waiting before we got any mine rescue teams into 
that mine was excruciating, not only for those of us who were 
there but certainly for the families.
    We, as a Congress, also must do our part by ensuring that 
MSHA has adequate funding to carry out its mission of 
protecting our miners. The president's budget proposes a modest 
increase for mine safety, but it is my hope that a more 
substantial increase is given to MSHA to add inspectors, allow 
for larger training grants and provide additional resources for 
the evaluation of new technologies.
    I appreciate you holding the hearing for those miners and 
families of the Sago Mine tragedy. I know that they don't want 
to see any future mine families go through the devastation and 
the heartbreak that they have suffered because of the tragedy 
of January 2 and the subsequent tragedies in West Virginia.
    West Virginians are a family. We feel it all in our heart 
when one of us goes down. And the mining community and coal 
mining is in our blood, and it is vitally important to this 
nation's economy.
    So I look forward to working with the subcommittee on this 
vital issue to my state and to others around the country, and I 
appreciate the opportunity.
    Thank you.
    [The statement of Ms. Capito follows:]

 Prepared Statement of Hon. Shelley Moore Capito, a Representative in 
                Congress From the State of West Virginia

    Mr. Chairman: I want to thank you for holding this important 
hearing and for the opportunity to testify. You well know the tragedy 
that West Virginians have endured in the coal fields this year, and I 
appreciate the willingness of the subcommittee to examine steps that 
Congress and the Mine Safety and Health Administration can take to 
improve the safety of our miners.
    On the morning of January 2 an explosion rocked the Sago Mine in 
Upshur County, West Virginia in my congressional district. Thirteen men 
were trapped 260 feet below the surface. One miner suffered serious 
injuries resulting from a lack of oxygen. Twelve other miners were 
killed in the tragedy. Four other miners were killed in West Virginia 
in accidents at the Alma Mine and in Boone County during January. The 
one positive that can come from these tragic deaths is a renewed 
commitment, from government, from industry, and from miners themselves 
to improving safety in our underground mines.
    MSHA and the mining industry deserve credit for making 2005 the 
safest year in the history of the industry. But I sat with the families 
and friends of the trapped miners as we awaited word from the Sago mine 
and I attended memorial services, and when tragedy strikes no one cares 
how safe the previous year was. One death is too many and we must take 
whatever steps are necessary to improve safety.
    Last Thursday, MSHA published emergency rules that are a positive 
first step in the process. These rules will require additional self-
rescuers to be placed in underground mines and provide training for 
miners on how to transfer from one Self-Contained Self Rescue device to 
another, The rules will also increase the use of lifelines to guide 
miners out and require companies to report mining accidents to MSHA 
within 15 minutes.
    These emergency rules are certainly a step in the right direction 
in enhancing the safety of our underground miners, but they are only 
the first step in what must be done to prevent future accidents and 
respond effectively if an accident does occur.
    West Virginia's congressional delegation introduced a bill, HR 
4655, that I believe outlines the areas your committee should focus on 
as you examine MSHA regulations and consider legislation. These areas 
include the structure and availability of mine rescue teams, the 
emergency oxygen supply for miners, and new and emerging technologies 
like tracking devices, two-way communications, and rescue chambers.
    Many have complained that new mining technologies are not 
available. Both in the meetings I have had on mine safety issues and 
indeed in the hearing this subcommittee held on March 1 there has been 
disagreement on which tracking and communications systems work. My 
response has been that if there is no two-way communications system 
now, one must be developed and developed quickly. We know that at least 
12 of the 13 Sago miners were alive hours after the explosion. Lives 
could almost certainly have been saved if rescuers could have 
communicated with the trapped miners and directed them out of the mine.
    I believe that where a serious will exists to develop a new 
technology, the goal can be achieved. Indeed, seven new two-way, 
wireless communications devices will be tested in West Virginia next 
week and MSHA has said that it received over 80 proposals in response 
to its January request for public comment, demonstrating that there are 
companies and individuals willing to create this safety technology.
    We know that tracking systems are available now, despite 
limitations that may mean that a miner's location is only known based 
on the last tracking beacon they passed. I believe this technology 
could and should be improved, but when it comes to safety perfection 
should not be the enemy of the good. We should require that tracking 
systems become standard across the underground mining industry.
    Most of us now know that a mine rescue chamber saved dozens of 
lives at a mineral mine in Canada. I certainly understand the view 
point expressed in the March 1st hearing that miners should be trained 
to get out of the mine in an emergency--clearly evacuation is 
preferable in an accident to waiting in a rescue chamber. Still, we 
know there will be instances where miners will be unable to immediately 
escape. We need to seriously evaluate whether rescue chambers will work 
in underground coal mines, and if they will then they should be 
included as a life saving device for American miners.
    It is my belief that Congress must act to require that regulations 
be issued on new safety technologies. Steven Luzik ,the chief of MSHA's 
Approval and Certification Center told the Associated Press this week 
that prior to the accidents in West Virginia, MSHA had not done much to 
test and evaluate new communications equipment. While I am encouraged 
that new two-way wireless communications devices will be tested in an 
underground mine in West Virginia, I fear that as we move further away 
from the tragedies at Sago and Alma that complacency could again take 
hold when it comes to new safety technologies.
    Only Congressional action, through legislation and through 
continued oversight can ensure that the positive steps currently being 
taken in regards to mine safety are not swept under the rug when the 
public spotlight turns away from the issue.
    In addition to new technologies we should take steps to improve our 
mine rescue teams, ensuring that they are familiar with the mines and 
can respond as soon as it is safe to enter an accident scene.
    New mines are opening in West Virginia and we know that the 
population of miners is aging. As new miners join the workforce they 
must receive extensive training on how to prevent accidents in the 
first place and what to do if an accident occurs.
    We as a Congress also must do our part by ensuring that MSHA has 
adequate funding to carry out its mission of protecting our miners. The 
President's budget proposes a modest increase for mine safety, but it 
is my hope that a more substantial increase is given to MSHA to add 
inspectors, allow for larger training grants, and provide additional 
resources for the evaluation of new technologies.
    We all recognize the dangers of the mining profession, but we must 
do everything in our power to make underground mining as safe as 
possible. I saw the pain and suffering at Sago and we must act to 
prevent similar tragedies. Tragedies in West Virginia put mine safety 
on that national radar screen, and West Virginians want to lead the way 
towards improving mine safety around the country. I am committed to 
working with the subcommittee and all other interested members to save 
lives and reduce accidents across the country.
    Again, Mr. Chairman, I thank you for holding this hearing. I look 
forward to continuing to work with the subcommittee on this vital issue 
to my state and to others around the country.
                                 ______
                                 
    Chairman Norwood. Thank you very much, Ms. Capito.
    Mr. Rahall, you are now recognized.

STATEMENT OF HON. NICK J. RAHALL, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Chairman Norwood and Ranking Member Owens, I do 
express my appreciation as well as that of many who reside in 
our nation's coal fields for your holding this second hearing 
today on the issue of coal mine safety.
    I appreciate the question, as you have asked at the 
previous hearing as well as in your opening comments today. 
They are pertinent and right on target, and I appreciate your 
commitment to improving our nation's mine safety as well as 
that of the ranking member, Mr. Owens.
    My purpose in appearing before you today is to extol the 
virtues of legislation that the West Virginia congressional 
delegation introduced on February 1st, which has already been 
referenced, and to ask that it be expeditiously considered by 
this subcommittee and the full committee.
    The legislation, as you know, H.R. 4695, the Federal Mine 
Safety and Health Act of 2006, reflects what I and many others 
views as common sense approach to dealing with the most 
immediate and pressing shortcomings of the current mine safety 
regulatory regime.
    This bill is the opportunity for this Congress to 
demonstrate that the lessons from the tragedies earlier this 
year at Sago, Melville and two other mining operations in West 
Virginia, and elsewhere for that matter, are not falling on 
deaf ears.
    The simple fact of the matter is that currently MSHA's 
regulations and polices are woefully inadequate on several 
fronts, such as their neglect of advances in technologies that 
could be deployed to increase the survival of coal miners 
involved in emergency situations.
    In this regard, our legislation would provide a road map to 
MSHA on where, using existing statutory authorities, it could 
dramatically improve mine safety. This legislation does not 
amend the Federal Mine Safety and Health Act of 1977, and I 
would like to emphasize that point. Rather, it points to 
existing statutory authorities, and it prods MSHA into action.
    Frankly, just about the entire bill, Mr. Chairman, could be 
implemented administratively if the agency simply had the will 
to do so.
    But that, unfortunately, is not the case. For instance, the 
emergency rulemaking it recently announced, MSHA addresses 
several neglected safety issues, including the need for 
increase oxygen supplies in the mines. However, I must point 
out that even here the proposed rule is deficient. It would 
require an additional one hour's worth of oxygen for a total of 
a 2-hour supply. By MSHA's own admission, at 76 of our nation's 
underground coal mines, miners would need more than 2 hours of 
air to escape.
    So what does the rulemaking say to those coal miners? By 
contrast, our West Virginia delegation bill would require 
enough oxygen to maintain trapped coal mines for a sustained 
period of time. If, as a result of adequate study and input, 
during the rulemaking process sustainability is determined to 
be 3 hours, 4 hours or whatever, that is what the standard 
would become.
    We do not set that time in our legislation. We do leave it 
up to the rulemaking process to determine what that sustained 
period of time is.
    We do not leave the coal miners at those 76 mines I 
referenced stranded without an equal chance of survival.
    Attached to my submitted testimony is an overview of H.R. 
4695. You can read it at your leisure, and at this point I just 
would conclude with an observation.
    Since we introduced the legislation on February 1, only one 
coal company has come to visit us to review the bill and raise 
concerns, and that is rather amazing to me. As a veteran of 
introducing legislation affecting the coal industry, past 
experience has been more like the barbarians at the gate. So 
this particular situation, I believe, stands as testimony to 
the fact that the bill is flexible in achieving its purpose.
    At the same time, I have read of concerns being expressed 
by some that the types of technology we are seeking to have 
placed in underground coal mines either may not work in all 
cases or are not immediately available.
    For America, which has long led the world in promoting 
workforce health and safety, the recent mine tragedies have 
been something of a black eye. They have highlighted advances 
abroad and a lack of sufficient innovation here at home. With 
the know-how of this nation, overcoming the technology hurdle 
is a small challenge, nudged along by regulation called for in 
this bill.
    For instance, the legislation says that within 90 days of 
enactment, the secretary shall engage in a rulemaking to 
require the implementation of electronic tracking systems in 
underground coal mines. This legislation does not prescribe the 
particular technology that is to be used nor, for that matter, 
does it prescribe exactly when electronic tracking must be in 
place at all U.S. underground coal mines. We leave that to the 
rulemaking, to the public comment, to the mine health and 
safety experts.
    If the record shows that technology is immediately, all the 
better. If the record shows, however, that it may take several 
months for it to be available, then I expect there would be the 
timeframe established by the regulation.
    But the bottom line, Mr. Chairman, under this legislation 
is that electronic tracking will ultimately be a requirement.
    And with that, I thank you for your time and, again, for 
having this hearing today.
    [The statement of Mr. Rahall follows:]

  Prepared Statement of Hon. Nick J. Rahall, II, a Representative in 
                Congress From the State of West Virginia

    Chairman Norwood and Ranking Member Owens, I would like to express 
my appreciation, as well as that of many who reside in the Nation's 
coalfields, for your holding this second hearing today on the issue of 
coal mine safety.
    My purpose in appearing before you today is to extol the virtues of 
legislation the West Virginia Congressional Delegation introduced on 
February 1st and to ask that it be expeditiously considered by this 
subcommittee and the full committee.
    This legislation, H.R. 4695, the ``Federal Mine Safety and Health 
Act of 2006'' reflects what I, and many others, view as a common-sense 
approach to dealing with the most immediate and pressing shortcomings 
of the current mine safety regulatory regime.
    This bill is the opportunity for this Congress to demonstrate that 
the lessons learned from the tragedies earlier this year at the Sago, 
Melville and two other mining operations in West Virginia, and 
elsewhere for that matter, are not falling on deaf ears.
    The simple fact of the matter is that current Mine Safety and 
Health Administration regulations and policies are woefully inadequate 
on several fronts, such as their neglect of advances in technologies 
that could be deployed to increase the survival of coal miners involved 
in emergency situations.
    In this regard, H.R. 4695 would provide a roadmap to MSHA on where, 
using existing statutory authorities, it could dramatically improve 
mine safety. This legislation does not amend the Federal Mine Safety 
and Health Act of 1977. I would like to emphasize that. Rather, it 
points to existing statutory authorities and prods MSHA into action.
    Frankly, just about the entire bill could be implemented 
administratively if the agency simply had the will to do so. But that, 
unfortunately, is not the case. For instance, in the emergency 
rulemaking it recently announced, MSHA addresses several long-neglected 
safety issues, including the need for increased oxygen supplies in the 
mines.
    However, I must point out that, even here, the proposed rule is 
deficient. It would require an additional one-hour's worth of oxygen 
for a total of a two-hour supply. By MSHA's own admission, at 76 of the 
Nation's underground coal mines, miners would need more than two hours 
of air to escape. So what does that rulemaking say to those coal 
miners?
    By contrast, the West Virginia Delegation's legislation would 
require enough oxygen to maintain trapped coal miners for a sustained 
period of time. If, as a result of adequate study and input during the 
rulemaking process, sustainability is determined to be three hours, 
four hours, or whatever, that is what the standard would become. We do 
not leave the coal miners at those 76 mines I referenced stranded 
without an equal chance of survival.
    Attached to my submitted testimony is an overview of H.R. 4695. You 
can read it at your leisure. At this point, I would like to conclude 
with an observation.
    Since we introduced this legislation on February 1st, only one coal 
company has come to visit us to review the bill and raise some 
concerns. That is amazing to me. As a veteran of introducing 
legislation affecting the coal industry, past experience has been more 
like the Barbarians at the Gate. So this particular situation, I 
believe, stands as testimony to the fact that the bill is flexible in 
achieving its purpose.
    At the same time, I have read of concerns being expressed by some 
that the types of technology we are seeking to have placed in 
underground coal mines either may not work in all cases, or are not 
immediately available.
    For America, which has long led the world in promoting workplace 
health and safety, the recent mine tragedies have been something of a 
black eye. They have highlighted advances abroad and a lack of 
sufficient innovation here at home. With the know-how of this Nation, 
overcoming the technology hurdle is a small challenge, nudged along by 
regulation called for in this bill.
    For instance, the legislation says that, within 90 days of 
enactment, the Secretary shall engage in a rulemaking to require the 
implementation of electronic tracking systems in underground coal 
mines. The legislation does not prescribe the particular technology 
that is to be used, nor, for that matter, does it prescribe exactly 
when electronic tracking must be in place at all U.S. underground coal 
mines. We leave that to the rulemaking. To the public comment. To the 
mine health and safety experts. If the record shows that technology is 
immediately available, all the better. If the record shows, however, 
that it may take several months for it to be available, then I expect 
that would be the time frame established by the regulation. But the 
bottom line under the legislation is that electronic tracking will 
ultimately be a requirement.
    With that, thank you and I would be pleased to respond to any 
questions you may have.
Overview of H.R. 4695
            ``Federal Mine Safety and Health Act of 2006''
Enhanced Rescue Requirements
    (1) Better notification--Require underground coal mine operators to 
expeditiously provide notification of any accident where rescue work is 
necessary, and insure that the Mine Health and Safety Administration 
has a system to immediately receive these notifications.
    (2) Rapid emergency response--Require operators to maintain mine 
rescue teams whose members who are familiar with the workings of the 
coal mine as well as to have a coordination and communications plan 
between the teams and local emergency response personnel. In addition, 
the Secretary is directed to issue regulations to address the adequacy 
of rescue team training and member qualifications, the type of 
equipment used by the teams, the use of contractor teams, as well as 
liability and insurance issues.
    (3) Emergency air and communications--Require operators to maintain 
emergency supplies of air and self-contained breathing equipment at 
strategic locations within the mine for persons awaiting rescue. 
Operators would also be required to maintain independent communications 
systems to the surface.
    (4) Emergency tracking--Require operators to implement an 
electronic tracking device for rescue and recovery, and each person in 
an underground coal mine would be provided with a portable device to 
communicate with the surface and mine rescue teams.
Penalties
    Requires the Labor Secretary to prescribe a minimum civil penalty 
of up to $10,000 for a violation of the health and safety standards in 
instances where an operator displays ``negligence or reckless 
disregard'' of the standards. The Secretary is also directed to 
establish a penalty of up to $100,000 in instances where an operator 
fails to expeditiously provide notification of any accident where 
rescue work is necessary.
Prohibited Practices
    The bill reaffirms the existing statute's prohibition on using 
entries which contain conveyor belts to ventilate work areas in 
underground coal mines. When mines are arranged this way, and a fire 
breaks out on a belt, the belt tunnel can carry flames and deadly gases 
directly to the miners' work area, or to vital evacuation routes.
Technological Advances
    An Office of Science and Technology Transfer would be established 
within the Mine Health and Safety Administration to conduct research 
and development to advance new technologies for underground coal miner 
health and safety.
Miner Ombudsman
    The position of Miner Ombudsman would be established within the 
Labor Department's Office of Inspector General to ensure that coal 
miners may confidentially report mine safety and health violations.
                                 ______
                                 
    Chairman Norwood. Thank you, Mr. Rahall.
    Let me say, in case some of you testifying leave, let me 
just get the chairman's position on the table. This isn't going 
away. I don't care if a week passes or a month passes. I am not 
going to let this go away, period.
    Now, we have an obligation as a subcommittee to understand 
as much as we can about this, and we need to listen to both 
sides. I have started looking at the bill, and we are certainly 
going to come up with something. So be patient with us as we 
learn, because we really, truly want to do this thing right. 
And we are going to improve communications one damn way or the 
other where we can talk to these men underground.
    So trust me, I know Ms. Capito fears that if we don't do 
something next week, oh gosh, we will forget it. This chairman 
is not going to forget it, and I am not going to leave it 
alone. And I want to give you those assurances today.
    Thank you for your testimony.
    Let's see, what order are we going in?
    Well, I think we need to go ahead with you, Mr. Holt, since 
you came in first. You are now recognized.

 STATEMENT OF HON. RUSH D. HOLT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Holt. Thank you. I would be happy to yield to my 
colleague, Mr. Mollohan. When I arrived, I was railing against 
the seniority system, but I find it grows on you.
    [Laughter.]
    Well, thank you, Mr. Chairman, then.
    Well, there is no question that mining is a dangerous job, 
but it does not have to be that way. I am here today both as a 
scientist but I was also asked as a member of the Committee on 
Education and Labor because I have paid some attention to mine 
safety technology.
    I also feel strongly about this issue because I was born 
and raised in West Virginia where my father many years ago, as 
a U.S. senator, was known as one of the best friends a miner 
ever had. And I am struck by the fact that although fatalities 
in coal mines have decreased considerably over the last half 
dozen years, so has the number of mines. So that the marginal 
improvements in safety really have been quite modest.
    In the event of an emergency, miners are often left to rely 
on outmoded emergency breathing devices, and they have little 
communications. And, meanwhile, the Mine Safety and Health 
Agency has been downsized under the current administration, and 
NIOSH is not adequately funded to fulfill its research mandate.
    And I am particularly struck by the fact that so far this 
committee has failed to really get on the record the answers to 
questions that we need. I appeared, as you know, at your 
previous hearing, and I think there are a number of questions 
left unanswered.
    Technology to locate the positions of miners underground 
has been available since the 1970s. Why hasn't the Mine Safety 
and Health Administration required operators to use it? Why has 
the MSHA yet to require mine operators to use continuous dust 
monitors to help new cases of black lung to an end? Why hasn't 
MSHA required self-rescuers that last longer than an hour? Why 
hasn't to the agency required that air supplies and independent 
communication systems be strategically located throughout the 
mine? Why hasn't the agency insisted on the development of two-
way communications?
    Much of the above-mentioned technology exists. It is in 
use, whether required or voluntary, in a number of other 
countries--Australia, New Zealand, Canada, Mexico. Why is it 
not required in the United States?
    I could go on, but my point in being here today is to say, 
we have to get answers to these questions on the record, from 
experts. We, all of us here, care about the miners, care about 
mine safety, as do the members of the committee, but caring 
isn't enough. We have to get the facts, and I am struck by the 
fact of our failure to do so, so far.
    Now, this is an issue that brings me to another related 
point. There are questions. I mean, should we have hybrid 
wireless communications, or leaky feeder communications 
systems?
    No one on this committee is prepared to address that 
question technically. The benefits and the importance of 
medium-frequency technology and personal electronic devices and 
personal dust monitors require expert advice, and I am 
constantly aware that here in Congress members cast hundreds of 
votes on issues that have scientific components, and without 
the appropriate background and time, members of Congress are 
casting votes without the expert advice they need.
    I have been working for some time to restore to Congress 
something like the Office of Technology Assessment, which in a 
fit of reform was abolished a decade ago and has left us, well, 
as one of my colleagues said, with a self-imposed lobotomy. 
This hearing is a perfect example of how our decisions could be 
better informed and more rigorously tested through independent 
and non-partisan assessment of these technological issues.
    I look forward to your support in getting the Rahall bill 
marked up and through here, but I also look forward to your 
support in the creation of a body that will help us make the 
decisions on these technological questions in an informed way 
by having something like the OTA restored to advise us in 
Congress.
    I thank you, Mr. Chairman.
    [The statement of Mr. Holt follows:]

 Prepared Statement of Hon. Rush D. Holt, a Representative in Congress 
                      From the State of New Jersey

    Thank you Mr. Chairman for the opportunity to speak here today.
    There is no question that mining has been a dangerous job. It does 
not have to be that way. Today, coal mining is rated among the most 
dangerous jobs in America.
    I was asked here today because as a scientist, I have paid some 
attention to mine safety technology. I also feel strongly about the 
concerns of the mining industry because I was born and raised in West 
Virginia, where my father many years ago as a U.S. Senator, was known 
as one of the best friends a miner ever had.
    Though fatalities in coal mines have decreased 58% from 1990-2004, 
the number of coal miners decreased by 48% over that same time period. 
Therefore, the marginal improvements in safety have been quite modest. 
Other mining industries (metals/non-metals) show similar data. These 
data show that the majority of lives `saved' in the mining industry 
have been due to improvements in productivity rather than safety. Fewer 
miners are working, leading to fewer fatalities. These productivity 
improvements are an impressive achievement of the mining industry, but 
why is miner safety not a higher priority? We must find ways to improve 
conditions for miners, rather than just subjecting fewer to severe risk 
of injury or death.
    We also must pay attention to more than just those accidents that 
are fatal. Each year, thousands of incidents resulting in severe injury 
occur. Approximately 400 hundred fires, explosions, inundations, and 
other `near-misses' were reported since 2000. The long-term health 
implications of coal-mining are also not included in these data. Miners 
often face severe illness from extended duty in atmospheres polluted 
with particulates and noxious fumes.
    All of these health and safety issues could be solved with 
increased research and development efforts, and the deployment of new, 
but tested, technologies. We need to start taking mine safety 
seriously. The Mine Safety and Health Agency (MSHA) has been downsized 
under the current administration, and the National Institute of 
Occupational Safety and Health (NIOSH), is not adequately funded to 
fulfill its research mandate.
    In the event of an emergency, miners are often left to rely on 
outmoded emergency breathing devices (self-rescuers), which afford them 
only one hour of breathable air. This is not a reasonable amount of 
time to escape a mine which can be up to 5 miles long, and in case of 
fire or explosion, have zero visibility.
    <bullet> Remote air quality monitoring technologies are needed to 
continuously detect dust/particulate concentrations, methane gas, 
diesel fumes, and other noxious pollutants that can impair the short 
and long term health of miners.
    <bullet> Communications options are limited, due to the depth of 
the mine. Higher power transmitters would normally be used underground, 
but because of the ubiquitous presence of methane in coal mines, high-
power electronics pose an unacceptable risk of explosion.
    These are technological problems that can be addressed if we take a 
leadership role in ensuring the safety of our miners. Miner tracking 
systems, one and two-way communication devices, extended air reserves 
and other advanced technologies are employed, and even mandated in many 
other countries including Australia, Canada, Poland and Mexico. Why is 
it that we are not using the most advanced safety equipment in the 
world? One-way text pagers are a proven technology available today, and 
many believe that they could have saved the lives of the 12 miners who 
died this past January at the Sago mine in Tallmansville, West 
Virginia. Why aren't we using these? MSHA must hold the mining industry 
accountable for breaches of safety regulations, and NIOSH must be given 
the resources necessary to assist the mining industry in developing 
these necessary safety capabilities.
    An exemplary scenario is that of the hybrid wireline-wireless 
communications, or `leaky feeder', systems which offers promise for 
improving underground communications. Investment in this technology 
lagged in the private sector due to lack of financial incentives, and 
the primary developer (Motorola) scaled back its efforts. Recent 
attention to mine safety has spurred interest by the mining industry 
and the communications developer, aided by NIOSH involvement. Though 
the potential of this technology was clear, it would have sat on the 
shelf had there not been a collective push for increased safety. It was 
always on the laundry list of research efforts by NIOSH, but had to be 
prioritized below worker health due to limited funding.
    We cannot expect the telecommunications industry to take 
responsibility for the safety of our miners. MSHA has shifted their 
attention from enforcement to compliance assistance. The lack of 
resources provided to NIOSH is indicative of the lack of respect 
afforded by this Administration to research in general.
    NIOSH has been hindered over the past few years. Employment cuts, 
and an aversion to funding research by this Administration has left 
them with a long list of priority fields of study going unaddressed. If 
we are to rely on coal for electricity, then the least we can do is 
support research into new safety technologies that could protect the 
lives of miners, and work aggressively to their expedite their 
implementation.
    I appreciate your inviting me to testify for this hearing, but 
these are highly technical issues outside of my specialty. Although 
Members routinely deal with issues outside their base knowledge, we 
frequently rely on expert advice and testimony to inform us and to 
guide our actions.
    In this particular case, the benefits and importance of medium 
frequency technology, personal electronic devices, and personal dust 
monitors could be more cogently presented with expert assistance. As a 
physicist, I am able to critically analyze data and information to 
create an informed opinion, but I am not an expert in this area. 
Hearings should be for the true experts to inform and guide us.
    In each Congress, Members must cast hundreds of votes on issues 
that have a scientific component. Time constraints prevent us from 
attending every hearing and reading every scholarly publication to get 
expert advice in all areas. Congress needs a body that can offer 
nonpartisan assessment of science and technology issues. I am working 
to create a body to serve Congress in scientific and technology 
assessment, as the Office of Technology Assessment did until 1995.
    This hearing provides a clear example of how our decisions could be 
better informed and more rigorously tested through independent and 
nonpartisan assessment of these technological issues. I look forward to 
your support in the creation of this body so that we are better able to 
make critical decision for the future of our nation.
                                 ______
                                 
    Chairman Norwood. Thank you, Mr. Holt.
    You know, I can't help but agree with you, we need experts. 
The problem is I keep getting experts telling me opposite 
views, and that is the ticket here is to try to get to actually 
the truth. Well, you can get an expert to say anything, as you 
well know, and we are going to try our best to find the truth 
in all of this before we get done.
    Mr. Mollohan, you are now recognized.

    STATEMENT OF HON. ALAN B. MOLLOHAN, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Mollohan. Thank you, Chairman Norwood and Ranking 
Member Owens. I appreciate the opportunity to testify here 
before your distinguished committee today. And thank you for 
holding this hearing on mine safety and health.
    I appreciate the opportunity to testify in strong support 
of H.R. 4695, the Federal Mine Safety and Health Act of 2006.
    I appreciate your response to the necessity to continue to 
address the need for improvement in coal mine health and 
safety, a need tragically reaffirmed by the recent mine 
disasters in my home state.
    On January 2, 2006, an explosion in an explosion in the 
Sago Mine in Upshur County, West Virginia followed on January 
19th by a second disaster in the Aracoma Alma Mine in Logan 
County took the lives of this nation's finest, our coal miners, 
forever changing the lives of their loved ones and shocking the 
state and the nation into once again revisiting the adequacy of 
our coal mine safety laws.
    Everyone recognizes new approaches to safety challenges are 
needed, particularity in the light of advances in technology.
    As you know, along with other members of the West Virginia 
delegation, I am an original cosponsor of H.R. 4695, which 
addresses the most immediate and important deficiencies in 
current mine safety regime. It does this by dealing with issues 
that the administration could have chosen to address on its own 
administratively but, unfortunately, that has not been done and 
so this legislation is necessary.
    H.R. 4695 does not amend the Federal Coal Mine Health and 
Safety Act of 1977 but instead uses existing statutory 
authorities to get the administration to take action to improve 
mine safety by directing rulemaking within 90 days of enactment 
on various issues.
    Mr. Rahall already pointed out H.R. 4695 is an improvement 
upon even the emergency rulemaking that the Mine Safety and 
Health Administration recently announced. For example, the West 
Virginia delegation's bill would require enough oxygen to 
maintain trapped coal miners for a sustained period of time, 
the exact length of which will be determined as a result of 
input during the rulemaking process. Whereas, the emergency 
rulemaking only requires an additional 1 hour of oxygen for a 
total 2-hour supply, which MSHA acknowledges is inadequate.
    Additionally, this proposed legislation requires rulemaking 
to implement electronic tracking systems in underground coal 
mines. No particular technology is mandated; instead, that is 
left to the rulemaking process, which will include public 
comment and the input of mine safety and health experts.
    A variety of other critical areas are also covered by this 
proposed legislation, such as penalties, prohibited practices 
and enhanced rescue requirements.
    This legislation, I think, is particularly important, 
because it does allow for an expeditious addressing of these 
concerns and any other concerns that MSHA should determine 
could be taken up in rulemaking.
    As the chairman and the ranking member know and all people 
on this committee, the rulemaking process is extremely 
flexible, and it addresses the expert testimony requirement, 
the need to have competing, if you will, Mr. Chairman, as you 
alluded to, competing expert advice on any particular issue. 
When a rule is proposed, comment is invited, and that is the 
opportunity for expert testimony and in addition to testimony 
and rulemaking comment from the community and of course from 
members of Congress.
    This bill allows a process but allows expeditiously for 
these issues to be brought forward, for expert testimony to be 
applied to the problem and also for the community-at-large to 
comment. It is, in that sense, very addressing to the needs at 
hand in an expeditious manner.
    Mr. Chairman, Ranking Member Owens, I serve on the 
Appropriations Committee. I just want to note for the record 
here, and while this isn't an appropriations hearing, of 
course, and numbers aren't always completely telling, I do 
think it is very instructional to understand that since 2001 to 
2007 and in the request that we have before us, there is a drop 
in total MSHA staffing from 2,357 to 2,136. And that is MSHA 
overall.
    In regard to the enforcement staffing, there is a drop from 
fiscal year 2001 or 1,233 FTEs to fiscal year 2006, 1,016 FTEs.
    This administration needs more funding, more authorization 
and more appropriation, obviously. And it is particularly 
poignant, I think, in the area of coal mine safety and healthy 
where the drop is 17.6 percent in FTEs.
    In addition to addressing these technological issues, which 
I think this bill does very eloquently, we also need to address 
the inadequacy of staffing at this agency.
    Mr. Chairman, I appreciate the opportunity to appear before 
you and Ranking Member Owens, and I look forward to any 
questions that you might have.
    [The statement of Mr. Mollohan follows:]

   Prepared Statement of Hon. Alan B. Mollohan, a Representative in 
                Congress From the State of West Virginia

    Thank you, Chairman Norwood and Ranking Member Owens for holding 
this hearing on mine safety and health. I appreciate the opportunity to 
testify here today before you in strong support of H.R. 4695, the 
``Federal Mine Safety and Health Act of 2006.'' I regret that previous 
obligations at the Capitol will prevent me from staying for questioning 
after Members' testimony has been heard. I appreciate your response to 
the necessity to continue to address the need for improvements in coal 
mine health and safety, a need tragically reaffirmed by the recent mine 
disasters in my home State.
    On January 2, 2006, an explosion in the Sago Mine in Upshur County, 
West Virginia followed on January 19th by a second disaster in the 
Aracoma Alma Mine in Logan County took the lives of this Nation's 
finest, our coal miners, forever changing the lives of their loved 
ones, and shocking the State and the Nation into once again revisiting 
the adequacy of our coal mine safety laws.
    Everyone recognizes new approaches to safety challenges are needed, 
particularity in the light of advances in technology.
    As you know, along with other members of the West Virginia 
delegation, I am an original cosponsor of H.R. 4695 which addresses the 
most immediate and important deficiencies of the current mine safety 
regime. It does this by dealing with issues that the administration 
could have chosen to address on its own administratively but, 
unfortunately, that has not been done and so this legislation is 
necessary. Indeed, H.R. 4695 does not amend the Federal Mine Safety and 
Health Act of 1977, but instead uses existing statutory authorities to 
get the administration to take action to improve mine safety by 
directing rulemaking within 90 days of enactment on various issues.
    As Mr. Rahall has already pointed out, H.R. 4695 is an improvement 
upon even the emergency rulemaking that the Mine Safety and Health 
Administration recently announced. For example, the West Virginia 
delegation's bill would require enough oxygen to maintain trapped coal 
miners for a sustained period of time, the exact length of which will 
be determined as a result of input during the rulemaking process. 
Whereas, the emergency rulemaking only requires an additional one hour 
of oxygen for a total two hour supply, which MSHA acknowledges is not 
adequate.
    Additionally, this proposed legislation requires rulemaking to 
implement electronic tracking systems in underground coal mines. No 
particular technology is mandated, instead that is left to the 
rulemaking process, which will include public comment and the input of 
mine health and safety experts.
    A variety of other critical areas are also covered by this proposed 
legislation, such as penalties, prohibited practices and enhanced 
rescue requirements.
    Once again, thank you for allowing me this opportunity and thank 
for your consideration of H.R. 4695. I truly believe its passage will 
go a long way toward ensuring a safer work environment for our Nation's 
miners and, hopefully, prevent tragedies such as the ones that have 
recently caused so much heartache for so many.
                                 ______
                                 
    Chairman Norwood. Thank you, Mr. Mollohan.
    Now, Mr. Chandler, you are recognized for 5 minutes.

 STATEMENT OF HON. BEN CHANDLER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF KENTUCKY

    Mr. Chandler. Thank you, Mr. Chairman. I appreciate the 
fact that you and Ranking Member Owens decided to hold this 
hearing. I believe that it is extremely important, and I 
appreciate you allowing me the opportunity to testify.
    As I sit here, I can't help but think about my fellow 
Kentuckian, Mr. Carl Perkins, whose portrait I am looking at 
right now. As I am sure you know, Kentucky is a very 
substantial coal mining state, and the gentleman, Mr. Perkins, 
whose name is on this room that we are sitting in, represented 
most of the coal miners in Kentucky in his day, and I can 
assure you he would have an abiding interest in this subject.
    With the recent tragic mining accidents, it should be 
obvious all across America what Kentuckians have long known: 
Mining coal is a dangerous job, and federal and state 
governments must act now to improve safety in our mines. That 
means enforcing the rules on the books, making violators pay 
their fines and passing tough new laws to protect our miners.
    Getting right to the point, Mr. Chairman, we can not afford 
to wait another day, in my view, to pass real mine safety 
reform. Each day we fail to act, we are failing our miners who 
are simply trying to go to work and provide for their families. 
While saying that, I appreciate the necessity of getting it 
right, so I do understand that it does take some time. But we 
need to be vigilant and we need to be as quick about it as 
possible.
    Even after the devastating Sago tragedy, Timothy Caudill, 
father of two young children, was killed in Eastern Kentucky as 
a result of a collapsed roof in a mine with over 1,200 
citations and orders from MSHA since September of 2001. That is 
not acceptable.
    As representatives, it is our duty to protect people like 
Timothy Caudill and ensure that other miners are working in 
safe conditions. We must act quickly to protect our miners 
rather than simply serving the narrow interests of the coal 
companies.
    The appeals process must speed up, and operators should be 
denied new mining licenses if they have a history of excessive 
violations. The current system is flawed, it doesn't work, and 
it is costing miners their lives.
    I urge you to pass H.R. 4695, the Federal Mine Safety and 
Health Act. This legislation will not only prevent accidents, 
but ensure a higher rate of success during rescue operations. 
While several mining states have proposed or passed important 
legislation, I believe it is our duty to act on the federal 
level to ensure miner safety.
    Miners like Timothy Caudill should not die in vain, and 
this subcommittee, I believe, should report out H.R. 4695 just 
as soon as practicable.
    I appreciate, Mr. Chairman, you giving me the opportunity 
to speak briefly on this issue, and I, again, appreciate your 
concern.
    Thank you.
    [The statement of Mr. Chandler follows:]

 Prepared Statement of Hon. Ben Chandler, a Representative in Congress 
                       From the State of Kentucky

    Thank you Mr. Chairman. I commend you for holding this hearing on 
this important topic and appreciate the opportunity to testify.
    With the recent tragic mining accidents, it should be obvious all 
across America what Kentuckians have long known: mining coal is a 
dangerous job, and federal and state governments must act now to 
improve safety in our mines. That means enforcing the rules on the 
books, making violators pay their fines, and passing tough new laws to 
protect our miners.
    Getting right to the point, Mr. Chairman, we can not afford to wait 
another day to pass real mine safety reform. Each day we fail to act, 
we are failing our miners who are simply trying to go to work and 
provide for their families.
    Even after the devastating Sago Tragedy, Timothy Caudill, father of 
two young children, was killed in Eastern Kentucky as a result of a 
collapsed roof in a mine with over 1,200 citations and orders from MSHA 
since September of 2001. This is unacceptable.
    As representatives, it is our duty to protect people like Timothy 
Caudill and insure that other miners are working in safe conditions. We 
must act quickly to protect our miners rather than simply serving the 
narrow interests of the coal companies.
    The appeals process must speed up, and operators should be denied 
new mining licenses if they have a history of excessive violations. The 
current system is flawed, does not work, and is costing miners their 
lives.
    I urge you to pass H.R. 4695, the Federal Mine Safety and Health 
Act. This legislation will not only prevent accidents, but ensure a 
higher rate of success during rescue operations.
    While several mining states have proposed or passed important 
legislation, I believe it is our duty to act on the federal level to 
ensure miner safety.
    Miners like Timothy Caudill should not die in vain, and this 
subcommittee must report H.R. 4695 without delay.
    Thank you, Mr. Chairman. I appreciate the opportunity to be here 
today as you address this issue of great importance.
                                 ______
                                 
    Chairman Norwood. Thank you, Mr. Chandler.
    Happy St. Patty's Day. Sorry you had to be last.
    Mr. Murphy, you are now recognized for 5 minutes.

STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN CONGRESS FROM 
                   THE STATE OF PENNSYLVANIA

    Mr. Murphy. Thank you, Chairman Norwood and Ranking Member 
Owens, distinguished colleagues of the subcommittee, and thank 
you for the invitation to express my views about how Congress 
can better protect the health and safety of our nation's mine 
workers.
    Mine safety has been at the forefront of public policy 
issues in 2006 because this year was ushered in by 
heartbreaking disasters at the Alma and Sago mines in West 
Virginia. Two months after the tragedies, our prayers and our 
thoughts continue to be with the families who experienced the 
loss of the 16 lives in the accidents.
    I sit before you as the great-grandson of a coal miner, who 
worked in Pennsylvania mines back in the day when carts were 
pulled by mules and mines were lit by candles. I sometimes 
think I was one spark away from never being here. Mining was 
very dangerous work back then, but the industry has made some 
remarkable strides ever since. But as we debate legislative 
action, we must keep the focus on mine safety and do everything 
we can to ensure the safety of workers.
    I represent in my district coal miners, coal mines, coal 
mine owners, coal mine suppliers. I have visited three of those 
mines, longwall and continuous mining, and have seen firsthand 
what miners experience.
    In my district in southwestern Pennsylvania, the mining 
industry has been an integral part of the way of life for a 
century and a half. During the Industrial Revolution, 
Pittsburgh coal made Pittsburgh steel, and Pittsburgh steel 
built America and the world. Andrew Carnegie, the steel 
magnate, made steel in Pittsburgh not because the area had iron 
ore, but because the region had a colossal supply of coal and 
the water resources to move it.
    To this day, Pittsburgh sits on a 250-year supply of coal. 
The Pittsburgh coal seam remains one of the most valuable 
natural resource stockpiles in the world. Moreover, the promise 
of expanded clean coal technologies can unlock coal's potential 
to lead our nation toward energy independence and greater 
economic security. In an era which foreign leaders threaten to 
increase the price of oil when we block their wishes to acquire 
and threaten to use nuclear weapons, King Coal takes on even 
greater importance.
    However, as this subcommittee and all members of the House 
consider proposals to change the laws governing the mining 
industry, the most important goal of any legislation simply 
must be to make mining safer. I know all my colleagues share 
this priority. Every miner and their families expect, as they 
take that long elevator ride down to start their shift, the 
mines should be as safe as possible.
    Though safety must be the priority of any congressional 
action, it should be pointed out that safety measures over the 
years have worked and have improved mining safety. Mining 
fatalities have steadily decreased over the last several 
decades, reaching a record low in 2005. The last single year in 
which 100 or more miners died was 1984. Only once in the last 
10 years has more than 40 miners perished in the same year. But 
every miner's life lost is one loss too many.
    Indeed, advanced mining technology, including the 
introduction of longwall mining machines, remote control 
miners, and the installation of methane monitors on production 
equipment, has helped substantially reduce both injury and 
fatality rates in our nation's coal mines over the years. The 
lesson is, we know that applying safety measures does work.
    The recent tragedies have shined a spotlight on all aspects 
of mining. There are concerns about whether miners are 
sufficiently employing technology to communicate, whether 
procedures are properly followed in the event of an emergency 
and using ``belt air.'' Belt air refers to air that is directed 
into the underground coal mine, but it passes through the same 
tunnels in which conveyor belts transport coal out of the mine. 
This air, quite frankly, can be unhealthy to breathe and even 
flammable. On each of these issues and others, I hope we can 
all learn from our constituents and each other through the 
process.
    In addition, I hope we recount the success stories of the 
mining industry alongside some of the failures. For instance, 
CONSOL Energy, based in my district, sent their own rescue 
teams that arrived first at the Sago mine. The CONSOL rescue 
teams again and again work tirelessly to help miners throughout 
Pennsylvania and West Virginia, regardless of who owns the 
mine. We would all do well to learn from their successes. How 
were they equipped, how were they trained, what can they teach 
us? And what, in other instance, can we learn from the Quecreek 
Mine rescue?
    Certainly, legislation should provide additional measures 
where they are needed. But let's not just reinvent the wheel. 
First and foremost, I believe the Department of Labor must be 
better able to enforce existing laws. We must make sure they 
have all the tools they need to enforce these laws vigorously. 
Also, we need to carefully review procedures used by mining 
companies that have great safety compliance records. How do 
they manage to make mining safer when others do not? A review 
of best practices will help us do better, as well as examining 
those who fail to meet safety standards.
    Mr. Chairman, I thank you for this hearing and your 
commitment to protecting our nation's mine workers. Congress 
must, and I know Congress will, take appropriate steps to help 
ensure the tragic circumstances at Sago and Alma never develop 
again. The coal industry has helped fuel this nation for 150 
years, and coal can be used to heat our homes, power our 
economy and protect our nation for at least another 150 years 
if we continue to use it. But let us address the operational 
safety concerns of the critical American coal industry 
carefully, not just quickly, for the lives of too many miners 
are at stake.
    Thank you very much, Mr. Chairman.
    [The statement of Mr. Murphy follows:]

  Prepared Statement of Hon. Tim Murphy, a Representative in Congress 
                     From the State of Pennsylvania

    Chairman Norwood, Ranking Member Owens, distinguished colleagues of 
the subcommittee, thank you for the invitation to express my views 
about how Congress can better protect the health and safety of our 
nation's mine workers. Mine safety has been at the forefront of public 
policy issues in 2006 because the year was ushered in by the 
heartbreaking disasters at the Aracoma Alma and Sago mines in West 
Virginia. Two months after the tragedies, our prayers and our thoughts 
continue to be with the families who experienced the loss of the 16 
lives in the accidents.
    I sit before you as the great-grandson of a coal miner, who worked 
in Pennsylvania mines back in the day when carts were pulled by mules 
and mines were lit by candles. Mining was very dangerous work then. The 
industry has made remarkable strides ever since. But as we debate 
legislative action, we must keep the focus on mine safety and do 
everything we can to ensure the safety of workers.
    I represent coal miners, coal mines, coal mine owners, and coal 
mine suppliers. In my district in southwestern Pennsylvania, the mining 
industry has been an integral part of the way of life for a century and 
a half. During the Industrial Revolution, Pittsburgh coal made 
Pittsburgh steel, and Pittsburgh steel built America and the world. 
Steel magnate Andrew Carnegie made steel in Pittsburgh not because the 
area had iron ore, but because the region had a colossal supply of coal 
and the water resources to transport it.
    To this day, Pittsburgh sits on a 250-year supply of coal. The 
Pittsburgh coal seam remains one of the most valuable natural resource 
stockpiles in the world. Moreover, the promise of expanded clean coal 
technologies can unlock coal's potential to lead our nation toward 
energy independence and greater economic security. In an era which 
foreign leaders threaten to increase the price of oil when we block 
their wishes to acquire and threaten to use nuclear weapons, King Coal 
takes on even greater importance.
    However, as this subcommittee and all Members of the House consider 
proposals to change the laws governing the mining industry, the most 
important goal of any legislation simply must be to make mining safer. 
I know all my colleagues share this priority. Every miner and their 
families expect mines to be as safe as possible.
    Though safety must be the priority of any congressional action, it 
should be pointed out that safety measures over the years have 
significantly improved mining safety. Mining fatalities have steadily 
decreased over the last several decades, reaching a record low in 2005. 
The last single year in which 100 or more miners died was 1984. Only 
once in the last ten years has more than 40 miners perished in the same 
year.
    Indeed, advanced mining technology, including the introduction of 
longwall mining machines, remote control miners, and the installation 
of methane monitors on production equipment, has helped substantially 
reduce both injury and fatality rates in our nation's coal mines over 
the years. Thus, we know that safety measures do work.
    The recent tragedies have shined a spotlight on all aspects of 
mining. There are concerns about whether miners are sufficiently 
employing technology to communicate, whether procedures are properly 
followed in the event of an emergency, and the use of ``belt air.'' 
Belt air refers to air that is directed into the underground coal mine, 
and passes through the same tunnels in which conveyor belts transport 
coal out of the mine. This air can be unhealthy to breathe and even 
flammable. On each of these issues and others, I hope we can all learn 
from our constituents and each other through this process.
    In addition, I hope we recount the success stories of the mining 
industry alongside some of the failures. For instance, CONSOL Energy, 
based in my district, sent their own rescue teams that arrived first at 
the Sago mine. The CONSOL rescue teams again and again work tirelessly 
to help miners throughout Pennsylvania and West Virginia, regardless of 
who owns the mine. We would all do well to learn from their successes.
    Certainly, legislation should provide additional measures where 
they are needed. But instead of reinventing the wheel, first and 
foremost, the Department of Labor must be able to better enforce 
existing laws. Some provisions among the legislative proposals are 
redundant. Also, we need to carefully review procedures used by mining 
companies that have great safety compliance records. How do they manage 
to make mining safer when others do not? A review of best practices 
will help us do better, as well as examining those who fail to meet 
safety standards.
    Mr. Chairman, I thank you for this hearing and your commitment to 
protecting our nation's mine workers. Congress must, and I know 
Congress will, take appropriate steps to help ensure the tragic 
circumstances at Sago and Aracoma Alma never develop again. The coal 
industry has helped fuel this nation for 150 years, and coal can be 
used to heat our homes, power our economy, and protect our nation for 
at least another 150 years if we continue to use it. Let us address the 
operational safety concerns of the critical American coal industry 
carefully-not just quickly-for the lives of too many miners are at 
stake.
    Thank you very much.
                                 ______
                                 
    Chairman Norwood. Thank you very much, gentlemen.
    I will ask Major Owens now to ask some questions.
    Mr. Owens. I just have a few comments and questions. I want 
to congratulate the members of the West Virginia delegation for 
their unity and coming together and offering legislation.
    I also want to congratulate them for all the people who 
testified. I thought that given that they were all members of 
Congress, I was going to hear repetition of the same thing over 
and over, but from each one of you I heard a message which is 
quite enlightening but different. You have each made a 
particular contribution, from Mr. Mollohan's observations about 
the appropriations to Mr. Holt's discussion of the scientific 
situation.
    We were brought back, Mr. Chairman, to the fact that the 
guy behind me who was the head of this committee when I came to 
Congress, Carl Perkins, it was over his crusading, along with 
the outsiders like John L. Lewis in the mine fields, we reached 
a point where the atrocious conditions in the mine were 
alleviated so much so until we got smug. Things were made so 
much better as a result of the kinds of things that Carl 
Perkins and other folks did. Until we got smug, I think.
    And we have allowed other countries to go off ahead of us 
because they continue to improve safety in the mines, while we 
rest on our laurels. It is unforgivable that we allow other 
countries to get ahead of us in the area of technology, any 
technology. Mine safety technology certainly should be one of 
them.
    Technology is supposed to be the last frontier, and the way 
we have learned to take care of the globalization of the 
economy and stay ahead of the rest of the world, to have 
technology in any area leap ahead of us is a sad fact. But, 
certainly, in this area we should not have become so smug, but 
we turned away from all those kinds of improvements that could 
be made in mine safety.
    My question is, do you see any impediments in terms of 
partisan differences to an immediate forward movement toward 
the passage of this piece of legislation?
    We all agree on this piece of legislation. I think I want 
to confess that the mine owners new president asked to see me 
and I had a conference with him. I was surprised to hear that 
one of the owners, the other side, I always take the side of 
the underdogs, the people who have been oppressed by the 
conditions in the mine, and I never expected a mine owner 
representative to ask to see me.
    The president of the Mine Owners Association asked to see 
me, so we did have a sit-down. There is unprecedented 
opportunity for cooperation going forward and for a bipartisan 
effort here. We could raise up a model, an example here for the 
rest of our colleagues here in Congress of how to get things 
done. When they really have to be done in a way that takes care 
of the needs of our constituencies and puts aside some of our 
problems here in terms of Beltway rivalry.
    So here is an opportunity. Do you see any impediments of us 
going forward? Have you picked up any differences among our 
colleagues that would stop us from moving forward with the 
markup and passage of this legislation?
    Alan Mollohan?
    Mr. Mollohan. Thank you, Mr. Owens.
    I really don't, for reasons I alluded to in my remarks. The 
focus of this legislation--and I am continuously amazed at my 
good friend and colleague, Nick Rahall's, appreciation and 
intuitiveness about what is needed for safety of coal miners at 
any particular time. In the time of this disaster and following 
it, he has fashioned this piece of legislation, and I think 
focuses right in on the area that there is this consensus and 
bipartisanship about, and that is bringing new technology to 
work in the coal mines.
    And it has the beauty of focusing on technology, putting 
the process of studying it, looking at it in the rulemaking 
process so you don't have to develop all that information in 
statutory process. And everybody can, I think, sign up to that 
in a bipartisan way. And there are two pieces that obviously 
there is the authorization for it and then the appropriation 
for it. And I can assure you that the Appropriations Committee 
at least is going to have an opportunity to increase funding in 
these areas.
    So you have the authorization for MSHA to do rulemaking, to 
address the technological challenges. You are going to have an 
opportunity in the rulemaking process to have all that 
expertise come to bear. And then we, on the appropriations 
side, we have the responsibility to bring forth the resources 
to do that.
    Mr. Owens. Nick?
    Mr. Rahall. Major, if I may respond as well in addition to 
what Mr. Mollohan has so well stated.
    As far as opposition to our efforts, to this point, we are 
unified. As we have mentioned, our legislation is bipartisan. 
We also have seen in the state of West Virginia, for example, 
the coal industry support state legislation that passed in one 
day and signed into law by the governor.
    Our legislation mirrors that state action. We have been 
consulting with the coal industry in West Virginia. Our 
governor has done it in a very remarkable manner and been able 
to bring the coal industry, for the most part, on board in 
every effort we have undertaken thus far, and that is to the 
industry's credit.
    I believe they recognize that with increased profits, we 
all know what coal companies are making today, with the 
difficult time they had in recruiting more coal miners, that it 
is in their best interest to make their mine safer. Even if 
they have to invest some of their newfound profits, so be it. 
That is going to help them improve the safety of the coal 
mines, help them in their recruiting efforts and help them 
increase their bottom line, which, of course, is every 
shareholder's goal.
    The most opposition I have seen thus far has come from the 
Office of Management and Budget. Look at this latest emergency 
regulation that MSHA finally got through on an additional hour 
of oxygen. It had to go back and forth with OMB. We all know 
that OMB had problems with it, and I can foresee OMB having 
more problems in the future, as we try to pass this 
legislation, as we try to implement regulations. That is where 
I see the major problem, Major Owens--excuse the pun--is from, 
the budget angle downtown.
    Mr. Owens. I think, yes, certainly.
    Chairman Norwood. Nick, why would they have problems with 
that? Why would OMB have a problem with more oxygen?
    Mr. Rahall. Well, I guess the cost of implementing it, Mr. 
Chairman. In my opinion, there should be no price tag on safety 
of our coal miners. We all know you can't put a price tag on 
it. It should not even be relevant, but I assume that is OMB's 
job.
    Chairman Norwood. But whose cost? The taxpayers' cost?
    Mr. Rahall. I guess to MSHA of implementing it.
    Chairman Norwood. Shouldn't the coal mine have additional 
air available, period?
    Mr. Rahall. Yes, sir.
    Chairman Norwood. And pay for it.
    Mr. Rahall. Yes, sir. I totally agree.
    Chairman Norwood. So OMB doesn't have a damn thing to do 
with it.
    Mr. Rahall. I totally agree. That is what we are trying to 
tell MSHA to tell the industry to do.
    I could not agree with you any more, Mr. Chairman. But I am 
sure this committee is aware of what it took to get this latest 
emergency regulation implemented. It was all in the press. It 
went down to OMB, they sent it back, ``no,'' one time. Had to 
go back down to them again.
    Mr. Owens. I just want to make one last comment that I 
think is very important in everything that is been said.
    Coal is still our most abundant energy resource, and that 
fact keeps getting lost--thank you, Mr. Murphy, for reminding 
us--including right here in the Northeast. We still have 
Pittsburgh in that area which has coal mines that are sitting 
there waiting, and I think that the oil industry has run a game 
on us over the years and made us forget how important coal is 
or made us forget the possibilities of making coal 
environmentally safer.
    I visited a plant some years ago in South Korea where coal 
was the primary energy source, and they had it wired so that 
they grew flowers throughout the plant and all around the plant 
and the neighboring town was a greenbelt because, despite the 
fact that the coal was the primary energy, they had reached 
agreement with the people in town and the workers that they 
wanted to control the coal. So they had a huge pipe where the 
gas, the fumes, everything was funneled back into the system 
and--the gas of the coal would burn again. All kinds of things 
were being done, and that was at least 10 years ago. It was a 
south Korea automobile plant, a huge conflict.
    And I just wonder why we haven't done more to make coal 
environmentally safe and more desirable. In our discussions of 
where we are going in this nation in terms of our energy needs, 
coal keeps being shoved aside, and they are blaming the 
environmentalists in many cases, and environmentalists in many 
cases certainly falls into the trap of believing any coal 
increasing coal use is going to hurt the environment. And I 
think we need to come to grips with that.
    And I thank you for reminding us that it is--compared to 
the oil in the Middle East, it is the answer to our future 
problems right here on our soil, which means that we should 
find ways to make those who produce coal safer.
    I yield.
    Chairman Norwood. As I stated earlier in the hearing, as 
new members come in, we will interrupt our questions and offer 
them the opportunity to testify.
    Mr. Davis, you are now recognized, sir.

  STATEMENT OF HON. ARTUR DAVIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ALABAMA

    Mr. Davis of Alabama. Thank you, Mr. Chairman. Thank you 
for being gracious enough to do that. There are multiple 
markups going on, as the Chair is well aware.
    Mr. Chairman, let me thank you and my friend from New York, 
the ranking member, today, let me thank him.
    I am honored to have a chance to join my friends and my 
colleagues who also represent districts that have a significant 
mining presence. And I will begin my brief testimony, Mr. 
Chairman, with September 2001. The country was still reeling 
from September 11, and, frankly, because we are a country that 
sometimes focuses on one thing at a time, a lot of Americans 
never read about, never heard about, never learned about the 
tragedy in Brookwood, Alabama.
    About 10 days after 9/11, 13 miners went into the mines, 
did not return because of a tragic accident. Huge loss of life 
in one instance. All of us tuned into our cameras just a few 
weeks ago regarding Sago land in West Virginia, something that 
was enormously moving to every single one of us. And I had the 
honor of holding a town hall meeting in my district with 150 to 
200 individuals who work at that mine in Brookwood. There were 
two widows who were there, two enormously brave women. A lot of 
men and women who work in those mines, who work with the 
individuals who lost their lives 5 years ago.
    And, Mr. Chairman, I will tell you what I learned just in 
the 2 hours I spent with them. They are very brave people. If 
they weren't miners, a lot of them would be in Iraq and 
Afghanistan right now. If they weren't miners, a lot of them 
would be police officers, a lot of them would be firefighters. 
These are people who would find some way to serve, and they 
would be willing to risk their lives to do it. They are the 
heroes and they are the heroines.
    And all I would ask of this committee and frankly this 
institution, which I am honored to serve, is two things: First, 
I want to give those people a chance to have a voice. I thank 
you, Mr. Norwood, for convening this hearing and for providing 
other opportunities for them to lend their voice to the 
Congress. We need to do more of this.
    And, today, I am sending a letter to the National Mine 
Safety Administration, NMSA as it is commonly referred, and I 
am asking them to do something that you have done that they 
haven't done. I am asking NMSA to take the time to sit down and 
to meet with representatives from mining employees around this 
country. They are very smart people. They know mine safety. 
They know the ramifications. They know the issues. And I think 
NMSA would benefit from talking to them directly without a 
filter.
    I also believe it would say so much for them about our 
government's commitment to their safety.
    The final two points I want to make, I want to thank my 
friend from West Virginia, Mr. Rahall. I am honored to be a 
cosponsor of this bill, but as I told one mining family, this 
institution is sometimes very slow. I wish we could find a way 
to make this bill pass the House and pass the Senate and have 
the president sign it immediately. I know that won't happen. I 
know it is going to be a long, long process.
    So what values do we bring to that process? The first one, 
we have to make sure that mining violations don't just become 
the cost of doing business. These $60 fines, the men and women 
I met in Brookwood, Alabama are worth no more than a 3-month 
old parking ticket. And we do have to strengthen the punishment 
side.
    And, second, we do have to make sure that we do tangible 
things to improve safety. I am sensitive to the fact that the 
industry is already struggling to be cost-competitive. I am 
sensitive to the fact that the industry doesn't want to be 
overburdened, but we have to make sure that if we know what we 
can do to make mining safety, that we take those steps.
    And, finally, as my testimony runs into its final 40 
seconds, I think that we have to recognize that these 
individuals are making an enormous sacrifice every day. We 
can't make the risk go away. People going 3,000 feet 
underground, you can't make the risk go away. But what you can 
do is to be as humane and as decent and to take away as much of 
the risk as we possibly can.
    So I am honored to be here to lend my voice to this effort. 
I thank the Chair, and, most importantly, I thank these very 
brave men and women that I met 2 months ago for their 
character, their dignity and their courage.
    Thank you, Mr. Chairman.
    [The statement of Mr. Davis of Alabama follows:]

 Prepared Statement of Hon. Artur Davis, a Representative in Congress 
                       From the State of Alabama

    Chairman Norwood, Ranking Member Owens, Distinguished Colleagues, 
thank you for conducting this important hearing on an issue of critical 
interest to constituents in my congressional district. I appreciate the 
opportunity to participate.
    On a Sunday in late September, 2001, 3 workers labored at shoring 
up the roof of the No. 5 mine at Jim Walter Resources' in Brookwood, 
Alabama. A falling rock struck a battery charger and ignited sparks, 
touching off a methane gas explosion that ensnared the three workers 
deep in the mine. Ten other miners moved quickly to rescue their 
trapped brethren when a second explosion occurred less than an hour 
later. All thirteen men perished in the explosions.
    Recent tragedies in West Virginia illustrate, yet again, the heroic 
efforts of individuals who risk their lives every day to deliver energy 
to our nation. It also reinforces the need for a thorough reexamination 
of regulations and standards governing the industry. As policymakers, 
it is incumbent on us to ensure that our response is thorough and that 
we hear from those individuals who are most intimately connected with 
this vocation.
    Last month I held a listening post with Alabama mine workers and 
their families. I heard extraordinarily moving testimony from the 
children, wives, parents, friends and brothers and sisters of those 
killed in the Brookwood explosion. A number of themes emerged from the 
conversation. First, a deep sense of frustration pervaded the event as 
person after person expressed feelings of disenfranchisement from the 
discussions with the Mine Safety and Health Administration over current 
safety regulations and their enforcement. Miners and their families 
feel they don't have a place at the table and want first and foremost 
to be heard. These constituents listed a litany of concerns that are 
best stated in a more technical discussion about the issue, but it is 
imperative that they be given an opportunity to share their 
perspectives.
    As a result of the listening post, I sent a letter to MSHA 
encouraging Agency heads to sit down with miners and family members and 
open a constructive dialogue. I have also met with mine operators in my 
district who have expressed a willingness to work together on these 
vitally important issues of life and safety.
    I also encourage this committee to closely examine laws currently 
on the books and question if these laws are still effective and if they 
are being properly enforced. We should evaluate both the structure of 
and funding for the Mine Safety and Health Administration and we should 
look to those mine operators with the best safety records and ask why 
their practices stand out from others.
    As a cosponsor of Congressman Rahall's bill, I remain committed to 
working with all of you to craft meaningful legislation that will 
protect the lives and the jobs of our nation's mine workers.
    Thank you, Mr. Chairman and Ranking Member for your continued 
interest in mine safety and thank you to all the miners and their 
families for their sacrifices.
                                 ______
                                 
    Chairman Norwood. Thank you, Mr. Davis. I appreciate you 
taking your time to be here with us.
    Let me just, sort of, throw it out to all of you, whoever 
wants to answer or all of you.
    Why wouldn't we want our mines safe? Why wouldn't a mine 
owner want to do everything possible to make sure their mine is 
safe? Because everybody loses, some more than others, some with 
their lives, when it is not safe. And nobody gains when you 
scrimp on 2002. Nobody gains when you don't work at having good 
communications and making sure those men and women can talk to 
the service. What the devil is going on? Why is it so cost-
competitive?
    You mentioned cost-competitive, Mr. Davis. Is that what the 
dickens it is? I mean, coal is a major, major energy source we 
can't do without. It is bringing great prices. Why are we 
having this hearing?
    Nick?
    Mr. Rahall. Very good question, Mr. Chairman.
    Without question, every mine operators wants to have a safe 
operation and is concerned about safety within his or her 
operation. The coal industry is, I guess, much like human 
nature. It is hard to make an investment in something that you 
may think may or may not work, like technology, or that is 
going to take a little out of that bottom line unless there is 
somebody telling you, you must do it.
    It is just very hard for the industry to come around, 
although, as I alluded to earlier, I think they are today, to 
come around to making some of these investments.
    Chairman Norwood. That is just bad business.
    Mr. Rahall. It is bad business.
    Chairman Norwood. Aren't they good businessmen?
    Mr. Rahall. Well, they are good businessmen, there is no 
question about that.
    Chairman Norwood. Well, what is this cost going to be for 
the accident at the Sago Mine?
    Mr. Rahall. That should not be a factor. You cannot, as I 
said earlier, put a cost on a coal miner's life.
    Chairman Norwood. But you can say for sure it is going to 
cost that company a lot of money. Let's just get cold-hearted 
here a minute. Let's just be the businessman. You don't want to 
spend the money for technology, but you are going to spend 10 
times that much because you didn't have the technology.
    Mr. Rahall. Mr. Chairman, that is true, but there has to be 
a push from above. There has to be a push from somebody which 
has not been there in the past to say, ``You have to do this. 
No cutting corners or else.'' And there has to be that, ``or 
else.''
    Chairman Norwood. Mr. Davis and then Mr. Murphy.
    Mr. Davis of Alabama. Mr. Chairman, you ask an excellent 
question and let me come at this from a different perspective. 
As I understand the facts, in the last 5 years in this country 
there have been 300 mining safety problems, near misses, 
incidents, things that could have gone very wrong that ended up 
being spared at the last minute.
    I know Nick will correct me if I am wrong, but, Nick, I 
think that is the number, around 300 accidents or near misses.
    Imagine if the airline industry in this country had had 300 
near collisions, near crashes, near blowups in the last 5 
years. Can we conceive that Congress would not be very 
aggressively engaged in passing new regulations? Can we 
conceive that we wouldn't be frightened out of our minds?
    Just because these people are literally underground and out 
of sight doesn't mean that they don't merit the same concern. 
Just because only some of them are exposed to this risk and not 
the large general population doesn't mean that we shouldn't be 
concerned.
    And Congressman Rahall and you, Mr. Chairman, made the 
point, whatever is the cost of getting as safe as we can be 
surely it is not the cost of fixing a major disaster. And it is 
also not the worth the cost of losing legitimacy for the 
industry.
    I had a group of industry executives come to see me a short 
time ago, and I told them point-blank, ``I respect your 
concerns. I know you are in business, I understand that. I know 
you are doing what you can. But you have every incentive, 
gentlemen, to try to make sure that this is safe and that it 
works. If you want people to keep being your employees, if you 
want good, talented, skilled people to keep working in your 
industry, you have got every incentive to do this the right 
way.''
    I always err on the side of believing that people want to 
do the right thing, and that doesn't always work in politics, 
but I think it will work here.
    But Congressman Rahall is exactly right. We do have to 
incentivize them. We can't just do these hearings after a Sago 
or after a Brookwood. We have to have a constant concern. 
Frankly, we have got good federal laws in the books, in some 
respects, but we do have to make sure we are tougher about 
enforcement. And I will end on that point.
    The average fine, Mr. Chairman, in the last 5 years for a 
safety violation is $60--a 2-month old parking ticket. These 
people deserve a much more committed safety and enforcement 
regime than that.
    Chairman Norwood. And there are also state rules too, which 
I want to get into that.
    But, Mr. Murphy, you wanted to----
    Mr. Murphy. Yes. I wanted to repeat my point before about 
we need to look at the best practices of companies that are 
making some efforts. So if you look at, in terms of safety, 
since 1970, coal production has increased 83 percent while 
fatal injuries have decreased 92 percent. Now, that tells me 
that someone is finding a way of making this work. I think it 
is about half of the U.S. coal mines operate each year without 
a single lost work-time injury. Now, that means the other half 
are having some problems here.
    And this is where I agree with my colleagues. Perhaps it is 
a matter of enforcement, perhaps it is a matter of the size of 
the fine. It is also a matter of making sure that the 
enforcement is working. One mine, someone may fine someone as 
he takes his helmet off to wipe his brow, and yet, I am not 
sure what that does to improve overall mine safety. On the 
other hand, charging $60 for a fine for something that is a 
major issue is not appropriate. But the most thing is we have 
to make sure we have continued enforcement of these things.
    I am concerned about the Department of Labor being able to 
do that and being able to follow through with some clout on 
these issues.
    There are some records of success among coal companies, and 
I hope it just proceeds forward. Fine them, talk to them, say, 
``How do you manage to do it and other people are not?'' 
Because I think they have got things there we can learn from. I 
mean, I believe all mine owners, I would hope, as their 
employees go down the shaft each day, whatever it is, that they 
remember and as they look in their eyes they have got families 
behind them.
    But we know that some mines are better off at enforcement 
than others, and we ought to talk to them.
    Chairman Norwood. Your point, I think, is extremely well 
taken, and that is why I get confused. How can half of them be 
doing this right, making money, which is that is what the 
stockholders are there for, that is what it is about? How can 
they be doing that, and then how can we have the other half 
simply not paying attention?
    Mr. Mollohan. Mr. Chairman?
    Chairman Norwood. Yes, sir?
    Mr. Mollohan. You know, I agree with Congressman Rahall, 
that is a great question. There may be some operators out there 
today that operate under the misguided belief that safety costs 
too much. I doubt that there are very many. That is certainly 
not a prevailing view, I can tell you, in my area and in my 
state. I think most operators understand that safety overall 
does pay and that a safe mine is a profitable mine.
    But there is this whole aspect of change----
    Chairman Norwood. Would the gentleman yield a minute?
    Mr. Murphy, are you leaving?
    Mr. Murphy. Yes. I have to run.
    Chairman Norwood. I have a couple of questions, but I will 
submit them to you. If you would put them back to us so I can 
put them in the record, please.
    Mr. Murphy. Yes, I would be glad to.
    Chairman Norwood. Thank you very much.
    Excuse me, sir.
    Mr. Mollohan. No, Mr. Chairman, of course.
    There is this whole process of change, this phenomena of 
change that all of us resist in one way or another in our 
lives, and I think it manifests itself in any industry and 
particularly a highly regulated industry. They have got it set, 
change incorporating safety policies, safety practices. That is 
a very expensive process, and just contemplating that people do 
think of the budget and they think competitively and they think 
in some ways, well, perhaps that does create a competitive 
disadvantage.
    That is not the same thing as saying that they don't 
believe safety doesn't pay. I do believe they think that safety 
incorporated, already assumed in their processes does pay, but 
there is this aspect of, well, if we spend all of this money 
for non-production purposes, that is going to create a 
disadvantage, an economic disadvantage.
    So what is my point? This is a partnership, and this is 
where government comes into it. Because government creates that 
level playing field that makes people who makes operators who 
believes that safety doesn't pay, it makes them comply with 
safety standards, and it allows operators who believe that 
safety does pay to expend those initial costs that bring their 
operations up to that safe operating level. It creates that 
level playing field, and that is why this legislation, I think, 
is so important.
    And it is elegant in the sense that I have tried to point 
out before, it proposes rulemaking to address technological 
challenges, which once these technological opportunities are 
identified and there are processes put in place to make them 
adaptive to a coal mining environment, then the regulatory 
regime can go in place, mandating their incorporation into 
mining practices. Safety pays. I think cooperators understand 
it as well as everybody, but getting there is the hard thing, 
and government is the vehicle, it is the catalyst, if you will, 
that gets them there.
    This is a capsule-intensive industry. They need to be made, 
everybody, on a level playing field, needs to be made to make 
the expenditures necessary to get up to the safe operating 
level and safe operating practices.
    And I am repeating myself but, you know, when you talk 
about it is a hard thing and there was some comment about it 
taking a long time to pass legislation, well, this legislation, 
really, as I see it fashioned, is as poised for expeditious 
consideration as any I can imagine, because it is bipartisan as 
it is introduced. But because of the way it is structured, is 
proposes a rulemaking and gives everybody an opportunity to 
input in that rulemaking process, and what can be easier than 
that?
    Thank you, Mr. Chairman.
    Chairman Norwood. Let's say we don't pass something. Let's 
say we fumble. Will West Virginia have straightened itself out 
with its state law?
    Mr. Mollohan. Well, I go back to the competitive aspect of 
that, if I might, and I yield to my colleague.
    Mr. Rahall. Just what Alan was saying, the level ball-
playing field is needed here, Mr. Chairman. We have taken the 
initiative at the state level, as I mentioned. We have got 
pretty much this same piece of legislation already passed and 
signed into law at our state level, but what about our 
neighboring states? What about those to which Alan referred 
that may make the decision that safety does not pay, and 
because of the competitive world to which he referred as well, 
they start relaxing safety conditions in order to be more 
competitive against their neighboring state, West Virginia. We 
are in a bad situation.
    Chairman Norwood. I am not suggesting this now, Nick. I am 
just thinking out loud about this. You talk about doing that, 
but in the back of my mind I keep thinking those who don't do 
it are the real losers competitively, financially as well as 
simply hiring people to come to work.
    Mr. Rahall. But if we don't do it, and they find out that 
safety does not pay, it is going to be tragedy again, and that 
is what we are trying to prevent here.
    Chairman Norwood. Yes.
    Mr. Davis?
    Mr. Davis of Alabama. Mr. Chairman, let me engage this from 
Alabama's perspective.
    Frankly, Alabama is not the best example, as we regulate 
almost nothing in the state of Alabama. We don't have a strong 
mine safety law today. And, again, as I know the Chair does 
understand, state legislatures are not dramatically different 
from this institution. There are collisions between interested 
people on sides of issues, and the interested people who 
sometimes have the most dollars to contribute, unfortunately, 
in most state legislatures, those are the folks who win out.
    Interestingly, in Alabama, even after what happened in 
Brookwood 5 years ago, we didn't get strong new mine safety 
laws. Why didn't that happen? Because the people who were 
concerned about the miners weren't able to quite wield enough 
political power to get a regulatory change.
    So I am not one who believes that we can simply wait for 
the states to lead in this area. The states have frankly not 
done a very good job of leading, and this is an issue that 
cries out for national standards. It is true that mining is not 
present in every state, and it is fairly concentrated in 
certain parts of our country, but the issue still cries out for 
national regulation and for national engagement. I think that 
that is why it is so important for this process to go forward.
    Chairman Norwood. Mr. Davis, I live next door to you. We 
don't have coal. We have marble, we have granite, we have 
kaolin, very important mining industries in my state. Does this 
bill need to include them?
    Mr. Davis of Alabama. Well, I will defer to Mr. Rahall who 
I know has certainly drafted the bill and has worked very hard 
on that.
    Mr. Rahall. Mr. Chairman, this bill, as crafted today, does 
not include those other industries, and it may be that we 
should. I am not that well versed in the mining aspects and 
dangers of those other industries to which you refer that exist 
in your state, but I am sure there are concerns with safety and 
that your industry people would want to make those operations 
safe as well before any disaster, God forbid, were to happen.
    Chairman Norwood. Well, God forbid, we haven't had any 
problems, because there is a whole different world of mining 
that we are dealing with. I am just wondering out loud.
    Mr. Owens. Mr. Chairman?
    Chairman Norwood. I would love for this to be specific for 
coal and then if we need to do something about kaolin, which is 
a whole different subject--and I need to yield to my friend 
here.
    Mr. Owens. Mr. Chairman, I am going to have to depart, and 
I just wanted to ask unanimous consent that the statement of 
Representative Costello be included in the record in its 
entirety.
    [The statement of Mr. Costello follows:]

   Prepared Statement of Hon. Jerry F. Costello, a Representative in 
                  Congress From the State of Illinois

    Good Morning. Mr. Chairman, ranking member Owens, and members of 
the subcommittee, thank you for allowing me to testify before your 
subcommittee today on the important issue of mine safety and health.
    I represent Southwestern and Southern Illinois, a region with a 
rich coal mining history. Coal mining has played a significant role in 
transforming and developing the region since the mid-1800s when 
substantial coal mining in Illinois began. In 2006, the coal industry 
continues to be a vital component of our economy, and one we are 
working to strengthen for the future. Improving mine safety standards 
is an important part of this process in Illinois, West Virginia, and 
other coal producing states.
    These unfortunate coal mining fatalities in West Virginia have 
highlighted the pressing need to revise the national coal mine health 
and safety standards to ensure miners are equipped with state of the 
art technologies and tracking devices, and sufficient emergency 
supplies of oxygen. I am pleased West Virginia legislators acted 
quickly to enact a state law requiring coal companies to give employees 
electronic tracking devices and to store oxygen supplies underground. 
Precautionary measures are needed to protect the health and safety of 
our coal miners and penalties for flagrant violations of the law and 
regulations must be enforced. To this end, I have joined my colleagues 
in the House as a cosponsor of Representative Rahall's bill, H.R. 4695, 
the Federal Coal Mine Safety and Health Act of 2006. This legislation 
contains sufficient authority for the Secretary of Labor to update, and 
enhance, underground coal mine health and safety regulations. Further, 
civil penalties for health and safety standard violations would 
increase.
    Our priority and primary concern must be the safety and health of 
the mine workers. Therefore, I urge the Committee to take up H.R. 4695 
so we can bring it to the floor for its immediate consideration.
    Thank you.
                                 ______
                                 
    Mr. Owens. Let me make one last comment. I have been trying 
hard to be conciliatory here and end on a positive note, but as 
we advance united and bipartisan, we are going to find that 
blind greed is what we are up against. We are going to see just 
how powerful they are as we advance to try to get this very 
much needed legislation passed.
    Chairman Norwood. Well, Major Owens, I am going to make you 
happy. Anybody messes with me on this that is trying to promote 
the unions, I am going to fight them. Anybody messes with this 
that is trying to promote coal mine owners, I am going to fight 
them.
    This is not about anything in the world but one thing, and 
that is mine safety for the men who go down in our mines. And 
anybody else wants to play politics with it, they are going to 
have the damndest fight they have ever seen on their hands, 
because we are going to get some answers here, and we are going 
to try to do the right thing the best we know how.
    I find it interesting, you have been talking to owners of 
mines in your office, and I have been talking to men who work 
in the mines in my office.
    Mr. Davis of Alabama. I have been talking to both of them, 
Mr. Chairman, I assure you of that. I have talked to both of 
them.
    Chairman Norwood. That is where I learned the most as 
opposed to hearings is talking to these men who go down that 
shaft and just sitting down man to man and talking about this 
stuff. That way I am not a Republican, and they are not a 
Democrat. We are just two human beings trying to figure out how 
in the heck we are going to make this a better place for the 
people who are on the absolute front line of our fight for 
energy in this country.
    So I promise you we are going to try to get something that 
is good, workable and helps all of our miners before this is 
over with.
    Mr. Rahall. Mr. Chairman, I might add, though, I have 
talked to all of them, as Art has, both the industry, the mine 
workers, the union, non-union and the mine rescuers just as 
they came out from their unsuccessful attempts to rescue miners 
in my area. I have talked to rescuers about their take on what 
happened below. In many cases, of course, they are not free to 
talk, and it had to be elsewhere.
    Chairman Norwood. I understand. I would love to talk to 
some of them.
    Mr. Rahall. Right.
    Chairman Norwood. Off the record.
    Mr. Rahall. Exactly. And this legislation, I might say, is 
drafted in response to some of those concerns, especially the 
training aspect where we say that local responders should be 
trained to go in immediately, so they don't have to--so they 
are the first ones on the scene, so they don't have to sit 
around and twiddle their thumbs while hours are wasted waiting 
on rescue teams from elsewhere.
    Mr. Mollohan. Mr. Chairman?
    Chairman Norwood. Yes?
    Mr. Mollohan. If I might, first, I want to express again an 
appreciation for your allowing me to be here to testify.
    My experience is that miners and operators alike, but 
particularly miners because they in such a poignant way operate 
in the industry, have had a lot of intuitive and technical 
insight into the questions that are being raised in this 
legislation. The beauty of it, they can express it in the 
rulemaking process if it comes to that, but giving them an 
opportunity to get on the record is probably, in a great 
democracy, would be a tremendous benefit, however that might 
happen, in a hearing or otherwise. Just a comment on that.
    If I might, our friend and colleague from Illinois, 
Representative Jerry Costello, who fully intended to testify 
here, Mr. Chairman--I feel us wrapping up, and so I want to get 
this out--he has asked that I ask permission of the committee 
that his testimony be submitted for the record. And he 
apologizes because he was going to be here during the regularly 
scheduled hour, but he could not be here when the hour was 
changed, and he wanted to make sure his testimony was made a 
part of the record.
    Chairman Norwood. It will be.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Davis of Alabama. Mr. Chairman, can I make one quick 
comment before we do wrap up? I want to go back to Mr. 
Mollohan's point.
    I mentioned during my opening statement that these 
individuals want to be heard, and they don't just want to be 
heard by Congress. There was a regular theme during the times I 
have talked to these miners in my office, during the town hall 
meeting that we had, there was a regular theme about the 
National Mine Safety Administration not being responsive 
enough.
    That is why I am going to ask NMSA, the National Mine 
Safety Administration, to sit down and convene a meeting with a 
group of mining employees around the country. There is no 
reason not to do that on Earth. Just because we are elected 
officials and we have the benefit of having this forum, that 
doesn't mean we are the only people who ought to get to hear 
from people in the world. The administrators, who every day 
have to enforce these laws, need to hear the perspective of the 
people in the mines.
    I was struck, and I know my colleagues here are struck, 
when you talk to the miners, they are incredibly informed. They 
have an incredible knowledge and grasp of engineering issues. 
They are able to talk with great complexity about things in a 
way that would dazzle all of us sitting in this room with our 
law degrees, our medical degrees.
    It would benefit the National Mine Safety Administration to 
listen to these people, but even more than that, it would send 
them a signal that they matter, that their concerns are 
legitimate, that they have a full stake in the process.
    And, Mr. Chairman, I would certainly invite you to join me 
in that call.
    Mr. Owens, I would invite you to join me in that call to 
the National Mine Safety Administration's director to convene a 
meeting with a group of mining employees.
    So I will end with that request and that offer to the Chair 
and the ranking member.
    Chairman Norwood. Gentlemen, thank you so much for your 
time.
    This isn't over. We will have another hearing soon. I am 
most interested and anxious about technology. We are going to 
really look at that very, very carefully.
    Mr. Davis, I hear what you are saying, but it has to be 
done so carefully about putting people together in a group or 
the next thing you know it is all politics. And I am interested 
in getting to the truth and getting to people who really want 
to sit down and bare their souls on this rather than people 
making political points.
    That is why what you are asking for is so difficult to do. 
The minute you set it up, everybody starts gerrymandering and 
jumping around and trying to get positioned so they can make 
their particular point. We will do what we can.
    Nick, you help me get together with some people privately. 
That is more useful to me than almost anything, I think, that 
we do when I meet with people who this is what they do, this is 
in their blood, they know what they are talking about and they 
are there just to simply tell me the truth.
    With that, gentlemen, we stand adjourned.
    Mr. Mollohan. Thank you, Mr. Chairman.
    [Whereupon, at 1:47 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
